<html>
<title> - ASSESSING VENEZUELA'S POLITICAL CRISIS: HUMAN RIGHTS VIOLATIONS AND BEYOND</title>
<body><pre>[Senate Hearing 113-635]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-635

  ASSESSING VENEZUELA'S POLITICAL CRISIS: HUMAN RIGHTS VIOLATIONS AND 
                                 BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT       
       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



 			U.S. GOVERNMENT PUBLISHING OFFICE                    
94-361 PDF                  WASHINGTON : 2017                     
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a> 
             

                   COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     2
Duddy, Hon. Patrick D., visiting faculty, The Fuqua School of 
  Business, Duke University, Durham, NC..........................    31
    Prepared statement...........................................    34
Jacobson, Hon. Roberta S., Assistant Secretary of State for 
  Western Hemisphere Affairs, U.S. Department of State, 
  Washington, DC.................................................     3
    Prepared statement...........................................     5
Malinowski, Hon. Tomasz P., Assistant Secretary of State, Bureau 
  of Democracy, Human Rights, and Labor, U.S. Department of 
  State, Washington, DC..........................................     7
    Prepared statement...........................................     8
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     1
Naim, Moises, Ph.D., senior associate, International Economics 
  Program, Carnegie Endowment for International Peace, 
  Washington, DC.................................................    37
    Prepared statement...........................................    39
Vivanco, Jose Miguel, executive director, Americas Division, 
  Human Rights Watch, Washington, DC.............................    43
    Prepared statement...........................................    44

              Additional Material Submitted for the Record

Letters Sent to Senators Robert Menendez and Bob Corker from 
  Roberta Jacobson re: The Role of Sanctions in Venezuela's 
  Policy.........................................................    65

                                 (iii)

  

 
  ASSESSING VENEZUELA'S POLITICAL CRISIS: HUMAN RIGHTS VIOLATIONS AND 
                                 BEYOND

                              ----------                              


                         THURSDAY, MAY 8, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Robert Menendez 
(chairman of the committee) presiding.
    Present: Senators Menendez, Durbin, Kaine, Markey, Corker, 
Rubio, Johnson, and McCain.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Before I welcome our panelists, let me welcome Senator 
Nelson of Florida who has expressed to the Chair a very deep 
interest in what is happening in Venezuela, and we welcome him 
here today to be with us.
    Let me welcome today's panelists from the Department of 
State, Duke University, the Carnegie Endowment, and Human 
Rights Watch, which this week released a deeply troubling 
report on the scale of human rights violations in Venezuela, a 
report documenting human rights abuses far worse than I had 
anticipated.
    The report documents how Venezuelan security forces, often 
in collaboration with colectivos, armed pro-government gangs, 
have systematically violated the rights of students, women, 
men, members of the political opposition, and journalists. They 
have severely beaten unarmed Venezuelans, and fired live 
ammunition, rubber bullets, and tear gas canisters 
indiscriminately into crowds.
    The report documents Venezuelan security forces subjecting 
detained protestors to severe physical abuse. I will not go 
into great detail, but I urge those who are interested to read 
the report. In one case, members of the National Guard detained 
a young protestor and, quoting from the report, kicked him, 
beat him and fired a rubber pellet from point-blank range into 
his right thigh. He was driven to a military installation where 
a guardsman who saw his bleeding leg inserted his finger into 
the open wound, removed it, and then inserted it again.
    The report goes on to say that the guards handcuffed him to 
a metal pole, gave him electric shock treatments, kicked him, 
and called him a fascist.
    Apparently, in some cases, prosecutors and judicial 
officials have been complicit in these reported human rights 
violations, and when governments degrade and politicize a 
justice system long enough, as the Chavez and Maduro 
administrations have done, the rule of law is abandoned and the 
judiciary becomes yet another tool of oppression.
    In fact, not a single member of the security forces have 
been sentenced for their role in these widespread human rights 
violations, but the courts have been used to remove and jail 
opposition mayors and imprison opposition leader Leopoldo 
Lopez.
    We should not overlook the fact that there has been 
violence on both sides, but we should be perfectly clear that 
the primary responsibility for the excessive, unjustified use 
of force rests with the Maduro administration.
    We must also be perfectly clear that a foreign power is 
acting openly in Venezuela, fueling the country's instability 
and economic and political crisis. The Cuban Government, its 
advisors, and its intelligence officers have penetrated and are 
influencing senior levels of the Venezuelan Government. This 
cannot be overlooked.
    Today's hearing is an opportunity for us to understand what 
role the United States has played and should play, given the 
current crisis in Venezuela.
    In the face of widespread human rights abuses in Venezuela 
and the lack of accountability for those crimes, I have 
introduced legislation, along with Senator Rubio and Senator 
Nelson, which calls for targeted sanctions on individuals 
responsible for rights violations.
    We also need to analyze what, in my view, has been a very 
weak response from the Organization of American States, look at 
what other South American governments are doing to mediate 
dialogue between the Venezuelan Government and members of the 
opposition, and explore other options, including action at the 
United Nations.
    We must also look at the future implications of the 
deteriorating political and economic conditions in Venezuela, 
and its potential impact on Caribbean and Central American 
nations that have benefited from Venezuelan subsidized oil 
shipments.
    Finally, we must assess the destabilizing role that Cuba is 
playing in Venezuela and the very real security challenges from 
transnational criminal enterprises operating in the country, as 
well as the signs of their collusion with members of the 
Venezuelan Government.
    With that, let me recognize the distinguished ranking 
member, Senator Corker, for his remarks.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Well, thank you, Mr. Chairman, and thank 
you for your leadership on this issue and for having this 
hearing.
    I want to thank Senator Nelson for his interest and being 
here. I know he used to be on the committee. I think that is 
correct. Anyway, we appreciate having him here.
    And I want to thank the witnesses for being here today.
    All of us, I think, have had briefings on the human rights 
violations that are taking place under the Maduro government, 
and they are quite startling, no doubt, especially with this 
most recent report. So thank you for shedding light on that 
today.
    We have had a number of foreign policy meetings, as we 
always do, and it has been difficult at times to understand 
exactly what the administration's policies are toward the areas 
where we are having issues. And so I do look forward today to 
the testimony to help understand us what the administration's 
core policy goals are as it relates to Venezuela.
    And again, I thank the witnesses for being here.
    Venezuela is a deeply troubled country. Forty-one people 
are dead. The stories of torture and other abuses that our 
chairman so eloquently laid out certainly cause all of us to be 
concerned and want to be involved in helping shape a better 
future there.
    The economy is in shambles. The country is very divided 
right now, which makes it even more difficult, I know, to move 
ahead in a way that makes a lot of sense.
    So I do look forward to the testimony today, and hopefully 
it will shed light on us here in America putting forth a 
coherent policy that helps the country move ahead, although we 
understand they are going to have to do that themselves but 
with our help. So thank you very much for being here. I look 
forward to your testimony.
    The Chairman. Thank you, Senator Corker.
    Well, let me introduce our first panel today. We have 
Assistant Secretary of State for the Western Hemisphere Roberta 
Jacobson; and Assistant Secretary of State for the Bureau of 
Democracy, Human Rights, and Labor Tom Malinowski. I believe 
this is your first appearance before the committee. So, we 
welcome you to your relatively new post.
    And with that, let me say that both of your statements will 
be fully included in the record, without objection. We ask that 
you summarize your statements in about 5 minutes or so, so that 
we can have in a dialogue with you. Madam Secretary, we will 
start off with you.

 STATEMENT OF HON. ROBERTA S. JACOBSON, ASSISTANT SECRETARY OF 
STATE FOR WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Jacobson. Thank you very much, Chairman Menendez, 
Ranking Member Corker, members of the committee. Thank you for 
this opportunity to speak with you about Venezuela.
    As you know, we continue to be very concerned about the 
situation in Venezuela where legitimate political, economic, 
and social grievances and a lack of adequate democratic space 
and respect for human rights have brought protests and, 
unfortunately, violence. The United States has called on the 
Venezuelan Government to respect human rights, uphold the rule 
of law, and engage in peaceful, inclusive dialogue with 
Venezuelans across the political spectrum to alleviate the 
tension. We have consistently called on the Venezuelan 
Government to release those it has unjustly jailed, lift 
restrictions on freedom of the press, and respect freedom of 
assembly.
    Assistant Secretary Malinowski will discuss the human 
rights situation in greater depth, while I will discuss what we 
are doing diplomatically to bring an end to the violence and 
encourage respect for democratic processes and human rights. I 
know this committee shares our concern, and we welcome your 
strong support for democracy in Venezuela.
    This is not a United States-Venezuela issue. It is an 
internal Venezuelan issue. We have been clear all along that 
the future of Venezuela is for the Venezuelan people to decide, 
and we have strongly resisted attempts to be used as a 
distraction from Venezuela's real problems. Our focus has been 
to encourage an end to the violence and an authentically 
inclusive dialogue to address the Venezuelan people's 
legitimate grievances. We have been actively engaging 
international partners to find a peaceful solution. We are 
encouraged by the Union of South American Nations-led 
initiative with Vatican participation involving meetings 
between the government and many parties of the political 
opposition.
    While we are encouraged by the UNASUR (Union of South 
American Nations) and Vatican efforts, we must have realistic 
expectations. The Venezuelan Government has so far resisted 
obvious demonstrations of good will: the release of political 
prisoners or disarming of the government-sponsored vigilante 
groups. Nevertheless, those opposition elements engaged in the 
dialogue are, for the first time in a long time, able to speak 
truth to power in a setting where the government must listen. 
That is not a panacea, but it could be a beginning.
    We also need to recognize that the Venezuelan opposition is 
not monolithic. Important elements of that opposition and 
student leaders remain outside the dialogue and are deeply 
skeptical of it. Protestors remain on the streets. They too 
need to be heard. We should respect the diversity of opinion 
within the Venezuelan opposition, meaning both those who have 
declined to enter the dialogue and those who believe that by 
doing so they can achieve some progress regarding human rights, 
democracy, and Venezuela's economic and social problems. This 
may be a slow process, and it may fail. But for now, 
significant elements of the opposition consider the effort 
worthwhile.
    Brazil, Colombia, Ecuador, and the Vatican are expending 
significant effort to facilitate this dialogue, and we believe 
it behooves us to respect the effort. If this dialogue does not 
begin to solve Venezuela's chronic problems, then the country's 
long-term outlook for stability is extremely poor. Leaving 
aside the ongoing political turmoil, Venezuela's economy is 
stalling, the government is struggling to meet its financial 
obligations, and massive fiscal adjustments are urgently 
needed. The failure of the current dialogue process would 
result in an even more troubled Venezuela and would redouble 
its need for honest brokers from the international community to 
help Venezuela find its way.
    We share the concern of many in the region that the current 
dynamics, especially economic, raise doubts about Venezuela's 
long-term stability. However, I want to emphasize the 
following: While we regard the current dialogue underway with 
cautious optimism, one thing we will not do is remain silent in 
the face of Venezuelan Government assaults on fundamental 
freedoms. Freedom of expression and peaceful assembly are 
universal human rights. They are essential to a functioning 
democracy.
    Venezuela's problems cannot be solved by criminalizing 
dissent. There must be space in Venezuelan society for those 
who do not agree with the government to express their views.
    We have strong historic and cultural ties with the 
Venezuelan people, and we remain committed to our relationship 
with them. But the future of Venezuela is for the Venezuelan 
people to decide. And they have real concerns that must be 
addressed. Venezuela's serious and worsening and economic and 
social problems require democratic solutions.
    We remain committed to working with member states to 
utilize the OAS in conjunction with other regional and 
subregional, as well as international efforts to advance real 
dialogue in Venezuela. The OAS, as the region's premier 
multilateral institution, can and should assume a greater role 
to find a peaceful resolution to the crisis in Venezuela, 
consistent with its mandate to promote peace, democracy, and 
respect for human rights in member states, as expressed in its 
charter and in the Inter-American Democratic Charter.
    Mr. Chairman, I would like to end by saying that I 
sincerely appreciate the support that the Senate Foreign 
Relations Committee has provided to our core foreign policy 
interests in Venezuela and in the hemisphere. We all seek to 
advance democracy, human rights, social development, security, 
and economic prosperity in the region.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Ms. Jacobson follows:]

             Prepared Statement of Hon. Roberta S. Jacobson

    Chairman Menendez, Ranking Member Corker, members of the committee, 
thank you for this opportunity to speak with you about Venezuela. I 
appreciate your interest in Venezuela and your support for U.S. 
assistance and our policies and engagement there.
    We continue to be preoccupied by the situation in Venezuela, where 
legitimate political, economic, and social grievances and a lack of 
adequate democratic space and respect for human rights have brought 
protests and, unfortunately, violence. The United States has called on 
the Venezuelan Government to respect human rights, uphold the rule of 
law, and engage in a peaceful, inclusive dialogue with Venezuelans 
across the political spectrum to alleviate the current tension. We have 
consistently called on the Venezuelan Government to release those it 
unjustly jailed, lift restrictions on freedom of the press, and respect 
freedoms of assembly and association. Assistant Secretary Malinowski 
will discuss the human rights situation in greater depth, while I will 
focus on what we are doing diplomatically to bring an end to the 
violence and respect for democratic processes and human rights. I know 
this committee shares our concerns, and we welcome your strong support 
for democracy in Venezuela.
    This is not a U.S.-Venezuela issue, it is an internal Venezuelan 
issue. We've been clear all along that the future of Venezuela is for 
the Venezuelan people to decide. We have strongly resisted attempts to 
be used as a distraction from Venezuela's real problems. Our focus has 
been to encourage an end to the violence and authentically inclusive 
dialogue to address the Venezuelan people's legitimate grievances. We 
have been actively engaging international partners to find a peaceful 
solution. We are encouraged by the Union of South American Nations 
(UNASUR)-led initiative with Vatican participation involving meetings 
between the government and many parties within the political 
opposition.
    While we are encouraged by the efforts of UNASUR and the Vatican, 
we must have realistic expectations. The Venezuelan Government has so 
far resisted two obvious demonstrations of good will: the release of 
political prisoners and disarming the government-supported vigilante 
groups. Nevertheless, those opposition elements engaged in the dialogue 
are, for the first time in a long time, able to speak truth to power in 
a setting where the government must listen. That of course is not a 
panacea, but it could be a beginning. We also need to recognize the 
Venezuelan opposition is not monolithic. Important elements of the 
opposition, and student leaders, remain outside the dialogue, and are 
deeply skeptical of it. Protestors remain on the streets. They, too, 
all need to be heard. We should respect the diversity of opinion within 
the Venezuelan opposition--meaning both those who have declined to 
enter the dialogue and those who believe that by doing so they can 
achieve some progress regarding human rights, democracy, and 
Venezuela's economic and social problems. This may be a slow process; 
it may fail, but for now significant elements of the opposition 
consider the effort worthwhile.
    Brazil, Colombia, Ecuador, and the Vatican are expending 
significant time and effort to facilitate this dialogue. It behooves us 
to respect and to support, as we have been doing, this effort. If this 
dialogue does not begin to solve Venezuela's chronic problems, both 
democratic and economic, then the country's long-term outlook for 
stability is extremely poor. Leaving aside the ongoing political 
turmoil, Venezuela's economy is stalling, the government is struggling 
to meet its financial obligations, and massive fiscal adjustments are 
urgently needed. The failure of the current dialogue process will 
result in an even more troubled Venezuela, and will redouble its need 
for honest brokers from the international community to help Venezuela 
find its way.
    We share the concern of many in the region that current dynamics, 
especially economic, raise doubts about Venezuela's long-term 
stability. However, I want to emphasize the following: While we regard 
the dialogue currently underway with cautious optimism, one thing we 
will not do is remain silent in the face of Venezuelan Government 
assaults on fundamental freedoms.
    Freedoms of expression and peaceful assembly are universal human 
rights. They are essential to a functioning democracy, and the 
Venezuelan Government has an obligation to protect fundamental freedoms 
and the safety of its citizens, including those who engage in peaceful 
protest.
    Venezuela's problems cannot be solved by criminalizing dissent; 
there must be space in Venezuelan society for those who do not agree 
with the government to express their views.
    We are not alone--the U.N. Secretary General, the U.N. High 
Commissioner for Human Rights and six U.N. special rapporteurs, the EU 
High Representative for Foreign Affairs, and others--have called on the 
Venezuelan Government to respect the universal human rights and 
fundamental freedoms of its citizens.
    We have strong historic and cultural ties with the Venezuelan 
people, and we remain committed to our relationship with them. But the 
future of Venezuela is for the Venezuelan people to decide. They have 
real concerns that deserve to be addressed. Venezuela's serious and 
worsening economic and social problems require democratic solutions.
    We defend human rights activists and fundamental freedoms around 
the world, including in Venezuela. Our commitment to democracy and 
human rights is unwavering and remains the center of gravity for our 
strategy in the region.
    We remain committed to working with member states to utilize the 
OAS, in conjunction with other regional and subregional efforts, to 
advance real dialogue in Venezuela. The OAS, as the region's premier 
multilateral institution, can and should assume a greater role to find 
a peaceful resolution to the crisis in Venezuela, consistent with its 
mandate to promote peace, democracy, and respect for human rights in 
member states, as expressed in its Charter and in the Inter-American 
Democratic Charter.
    Mr. Chairman, I would like to end by saying that I sincerely 
appreciate the support that the Senate Foreign Relations Committee has 
provided to our core foreign policy interests in Venezuela and the 
hemisphere. We are united in our core strategic goals. We all seek to 
advance democracy, human rights, social development, security, and 
economic prosperity in the region. There is strong, bipartisan 
cooperation where it matters most between the State Department and this 
committee, as well as among this committee's members and staff, to the 
great benefit of our country.

    The Chairman. Secretary Malinowski.

STATEMENT OF HON. TOMASZ P. MALINOWSKI, ASSISTANT SECRETARY OF 
   STATE, BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Malinowski. Thank you, Mr. Chairman, Ranking Member 
Corker, Senator Rubio. Thank you for having us here today and 
for all of your efforts to make sure that the spotlight 
continues to shine on Venezuela, even as we face so many other 
crises around the world.
    I want to start by putting this in a broader context and 
remarking that in the last several decades, democracy and 
respect for human rights have spread dramatically in Latin 
America. This has been one of the most extraordinarily positive 
transformations that we have seen anywhere in the world. As a 
result of it, we have been able to resolve armed conflicts. 
Prosperity has grown and is benefiting more people throughout 
the region. There are more opportunities for countries in the 
Americas to cooperate than ever before.
    And the United States has worked extremely hard to support 
this progress over the years and to push back when it is 
challenged. We have done so with countries that are our friends 
like Mexico and Colombia. We have done so with countries with 
which we have more strained relationships. We have done so by 
providing direct support to empower local communities and give 
citizens a voice in government. We have done so by championing 
the Inter-American institutions that are supposed to protect 
this progress and to hold every country in the region to the 
same high standards.
    But democracy is still under threat in Latin America. This 
progress is still under threat. And what is happening in 
Venezuela illustrates the threat perfectly. Venezuela reminds 
us that democracy is nothing without checks on government 
power. It requires a strong, independent judiciary, a free 
press, separation of powers, and respect for individual rights. 
The idea that winning an election gives the winner the power to 
impose his will without any institutional limits is as 
dangerous to democracy as a military coup, a point that we have 
occasion to make in many parts of the world these days. If that 
idea is legitimized in Venezuela, the region could go back to a 
time when states and societies were in conflict, as we are 
seeing on the streets of Venezuela today.
    So those are the stakes for us. That is why this is 
important.
    Well before the current crisis, as you know, successive 
rulers in Venezuela eroded respect for democratic principles in 
several stark ways, engineering the takeover of television 
stations, blocking Internet sites, stripping opposition 
parliamentarians of their immunity, politicizing the judicial 
system and using it to intimidate and punish selectively 
critics of the government. When judges have resisted government 
pressure, they have been punished, for example, the case of 
Judge Maria Afiuni who was imprisoned, abused, spent 4 years 
under house arrest, and remains on trial as we sit here today 
because she tried to do her job and enforce the law in 
Venezuela.
    The protests in February began as a reaction to increased 
crime, but they quickly evolved into a movement to restore the 
democratic freedoms that Venezuelans have lost. The government 
has responded, as you mentioned, with tear gas, with plastic 
bullets, leaving more than 40 people dead and hundreds injured. 
It has empowered armed civilian thugs to intimidate and kill 
those Venezuelans who continue to march, harassed and 
intimidated television and radio stations, newspaper staffs and 
independent journalists, prosecuted political opponents like 
Leopoldo Lopez, shut down the Colombian television station 
NTN24 to stop its widely viewed live broadcasts of opposition 
protests.
    The administration has consistently condemned these human 
rights abuses and called for the restoration of democratic 
rights and freedoms in Venezuela. Just yesterday, Secretary 
Kerry did so again saying that the people in the streets have 
legitimate grievances that deserve to be addressed.
    We have encouraged constructive pressure and involvement by 
other countries in the region, and to that end, Mr. Chairman, I 
want to thank you for your help in raising Venezuela with 
Mexico's President during your visit there in February. We have 
pressed the case at the OAS, at the U.N. We have continued to 
support targeted programs in Venezuela that promote democratic 
participation and help people overcome restrictions on freedom 
of expression, and we will not be deterred from continuing 
those programs.
    As Assistant Secretary Jacobson described in detail, the 
United States has also supported the mediated talks led by 
UNASUR with Vatican engagement. But we do not view dialogue as 
endless or as an end in itself. It is a means to an end, the 
restoration of the rights and freedoms Venezuelans have been 
denied for a generation. As Secretary Kerry said yesterday we 
will not stop defending those rights.
    So, Mr. Chairman, let me close by thanking you and others 
on this committee for raising awareness of the crisis. We are 
grateful for your longstanding commitment to advancing human 
rights and democracy in this hemisphere, and I would be happy 
to join Assistant Secretary Jacobson in answering any questions 
you have. Thank you.
    [The prepared statement of Mr. Malinowski follows:]

               Prepared Statement of Hon. Tom Malinowski

    Chairman Menendez, Ranking Member Corker, members of the committee, 
I am glad for this opportunity to appear before you today to discuss 
the deteriorating human rights situation in Venezuela. I join my friend 
Roberta Jacobson in welcoming your strong support for human rights, 
democracy, and rule of law in Venezuela.
    In the last several decades, democracy and respect for human rights 
have spread dramatically in Latin America. Dictatorships have fallen, 
and civil society has risen. As a result, a number of armed conflicts 
have been resolved. Prosperity has grown and is benefiting more people. 
There are more opportunities for countries in the Americas to cooperate 
to grow our economies and increase the security of our people than ever 
before.
    The United States has worked hard to support this extraordinary 
democratic progress, and push back when it is challenged. We've done so 
with friends such as Colombia and Mexico as well as with countries 
where our diplomatic relationships have been more strained. We have 
done so by providing direct support to people and nongovernmental 
organizations working across the hemisphere, from the bottom up, to 
empower local communities and give citizens a voice in government. 
Under Roberta's leadership, we have done so by championing the Inter-
American institutions, including the OAS and its Inter-American 
Commission on Human Rights and Inter-American Court, which protect this 
progress and hold every country in the region to the same set of 
standards.
    But democracy is still under threat in Latin America, and what is 
happening in Venezuela illustrates the threat perfectly. Venezuela 
reminds us that democracy is nothing without checks on government 
power; it requires a strong, independent judiciary, a free press, 
separation of powers, and respect for individual rights. The idea that 
winning an election gives the winner the power to impose his will on 
society without institutional limits is as dangerous to democracy as a 
military coup. This idea is at war with the basic principles that 
champions of human rights in Latin America have fought to enshrine in 
their national constitutions, and in Inter-American institutions. We 
have a stake in standing up for the principle, as President Obama put 
it speaking in Santiago, Chile, ``that simply holding power does not 
give a leader the right to suppress the rights of others, and that 
leaders must maintain power through consent, and not coercion.'' If 
that principle is undermined, the region could go back to a time when 
states and societies were in conflict, as we are seeing in Venezuela 
today.

  <bullet> The government has shut off all avenues of recourse, 
        politicizing the judicial system, and using the judiciary to 
        intimidate and selectively prosecute political, organized 
        labor, and civil society leaders who were critical of 
        government policies or actions. One judge who tried to rule 
        according to law, Judge Maria Afiuni, was imprisoned, abused, 
        spent 4 years under house arrest and remains on trial as we sit 
        here today. Her crime? Ordering the release of a prisoner who 
        had already served the maximum sentence without ever having 
        been tried.
  <bullet> Last May the government engineered a takeover of the 
        opposition-oriented Globovision television station by a company 
        with government ties. Globovision has now, of course, lost its 
        editorial independence.
  <bullet> In November, President Maduro announced that the government 
        blocked seven Internet sites that post dollar- and euro-
        currency exchange rates other than the government's official 
        rate. Maduro accused these Web sites of creating economic 
        instability and stated his intent to crack down on businesses 
        that inflate prices to equal the unofficial rate.
  <bullet> Also in November, the National Assembly revoked the 
        parliamentary immunity of opposition National Assembly Deputy 
        Maria Aranguren and charged her with corruption, money 
        laundering, and embezzlement. That action paved the way for 
        President Maduro to pass a bill authorizing him to rule by 
        decree for 1 year.

    The Department has for the last several years consistently 
highlighted the steady erosion of democracy and human rights in 
Venezuela, first under the Chavez and now Maduro administrations. The 
annual Country Reports on Human Rights submitted to Congress each year 
documents this trajectory publicly.
    In the current crisis, the government has intensified its assault 
on the rights of citizens to organize and express themselves freely. 
This time around President Maduro has made the media a particular focus 
of suppression, recognizing that an informed Venezuelan populace would 
present a threat to the government's power and control.
    Though protests in February were launched primarily as a reaction 
to increased crime, they have since spurred a full-fledged movement 
aiming for the restoration of democratic institutions, and for some, 
the resignation of President Maduro.
    The government has in turn responded with tear gas and plastic 
bullets, leaving more than 40 people dead and hundreds injured. The 
government has harassed and intimidated television and radio stations, 
newspaper staff, and independent journalists, along with political 
activists and opposition leaders.

  <bullet> The Maduro administration continues to persecute political 
        opponents, such as Leopoldo Lopez, who last week spent his 43rd 
        birthday in a military prison after surrendering himself to 
        authorities nearly 3 months ago. He still awaits a hearing, and 
        is all but guaranteed to be found guilty for spurious charges 
        fabricated by the government.
  <bullet> In February, the government shut down the Colombian 
        television station NTN24, to stop its widely viewed live 
        broadcasts of opposition protests. The station is now only 
        available via the Internet.
  <bullet> The Maduro government stripped National Assembly Deputy 
        Maria Corina Machado of her seat in retaliation for her 
        presence at the OAS in March.
  <bullet> The government has jailed two opposition mayors, Daniel 
        Ceballos and Enzo Scarano, the first sentenced to a year in 
        prison on charges of ``civil rebellion'' and ``conspiracy''; 
        the second sentenced to 10 months in prison for failing to 
        dismantle barricades.

    While dismantling the independent media and jailing local officials 
who dare to dissent, the Maduro government is simultaneously empowering 
armed civilian thugs, or ``colectivos'' to intimidate and kill those 
Venezuelans who continue to march.
    In turning to what we can do in response to the worsening situation 
in Venezuela, I remind this committee of Secretary Kerry's speech 
before the OAS in November 2013, where he stated that ``Successful 
democracies depend on all citizens having a voice and on respecting 
those voices, and all governments having the courage and the capacity 
to listen to those voices.'' The United States as Assistant Secretary 
Jacobson has described in detail continues to call for a dialogue with 
all Venezuelans in a climate of mutual respect. In that vein, we are 
encouraged by the mediated talks led by UNASUR, with Vatican 
engagement.
    Constructive involvement by Venezuela's neighbors will be essential 
to helping this highly polarized society reconcile. Regional civil 
society and media can also play a valuable role in supporting 
Venezuelan efforts for democracy and reporting on government abuses. 
One encouraging example was when several news outlets in Colombia 
shipped newsprint to Venezuela, after local newspapers were unable to 
restock their supplies due to government currency controls. We 
encourage Latin American civil society to continue supporting the 
Venezuelan people and to advocate their own governments to speak out as 
the situation deteriorates. To that end, Mr. Chairman, I want to thank 
you for your help in raising the situation in Venezuela with Mexican 
President Enrique Pena Nieto during your visit in February.
    We also press Venezuela diplomatically in the multinational arena. 
During the March session of the U.N. Human Rights Council, we raised 
Venezuela several times. We are hopeful that the Inter-American 
Commission on Human Rights can bring regional pressure to bear. Last 
month, the Commission released its 2013 report, which included special 
reports on the situations of some member states, including Venezuela. 
The Commission declared that the Venezuelan Government is in serious 
breach of the core requirements and institutions of representative 
democracy outlined in the Inter-American Democratic Charter, and 
detailed the abuses and deterioration of democracy I have mentioned 
already. In March, the Commission held hearings on the situation in 
Venezuela, at which human rights defenders and other members of civil 
society were able to formally report the violations they have 
witnessed.
    In close coordination with our other State Department colleagues, 
my Bureau, DRL, focuses on generating and providing support for human 
rights and democratic governance in Venezuela. We continue to run 
targeted programs that promote public participation in democratic 
processes and highlights restrictions on the freedom of expression. Our 
programs are available to all individuals regardless of political 
affiliation, and their fundamental purpose has been and will continue 
to be to promote the universal freedoms and rights Venezuelans have 
been denied for almost a generation.
    Mr. Chairman, let me close by thanking you and others on this 
committee for raising awareness of the crisis in Venezuela, which is 
often overshadowed by other world crises.
    We are grateful for your longstanding commitment to advancing human 
rights and democracy in this hemisphere. I am happy to answer any 
questions you may have.

    The Chairman. All right. Well, thank you both for your 
testimony.
    Madam Secretary, I know that the Obama administration, as 
is evidenced again today by your testimony, has supported the 
UNASUR-mediated negotiations between the Venezuelan Government 
and the opposition. And while expectations may have been very 
high during the public initial meetings, very few results have 
been produced.
    Meanwhile, members of the opposition, including Leopoldo 
Lopez, remain in prison. We now have documented evidence of 
systemic human rights abuses and cases of torture, and just 
this morning--this morning--250 students were arrested in 
Caracas.
    So can you tell me the specific diplomatic efforts beyond 
that which you testified? I hear that we have things going on 
behind the scenes. Well, what is going on that we have faith 
in?
    I heard you say--and I understand when you say we do not 
want to be a distraction, meaning we, the United States. We do 
not want the Maduro government to use the United States as a 
distraction. At the same time, we will not remain silent as it 
relates to human rights. It seems to me that we run the risk of 
doing what many of our South American neighbors do, which is 
that we do not want to, ``intervene in the internal affairs of 
another country.'' In the interim, people get arrested, 
tortured, and jailed. I do not know how long I am personally 
willing to wait for those set of circumstances to continue 
without pursuing a more vigorous action such as the sanctions 
that several of us have called for.
    So talk to me in the context of that set of circumstances.
    Ms. Jacobson. Thank you, Mr. Chairman.
    I think all of us are frustrated in the sense that--you are 
right--there were very high expectations as the two sides sat 
down to talk, really the first time in at least a decade that 
the opposition and the government had the opportunity--
certainly that the opposition had the opportunity to sit down 
and talk about some of the grievances that they had on 
democracy, on human rights and, indeed, in the first meeting 
that they had to do so on live broadcast TV and have those 
grievances heard by the majority of Venezuelans. And so that 
raised a lot of expectations.
    Those expectations have clearly not been met with results 
quickly. And I think that there is impatience from the 
international community and from Venezuelans themselves that 
some results need to be seen. And you are absolutely right. So 
far, we have not seen results. We have seen the arrests this 
morning of students who were protesting in four different 
locations in Caracas, and I think we have got to condemn those 
arrests in the strongest possible terms. Those were peaceful 
protests.
    But we also have to recognize that the Brazilian and 
Colombian and Ecuadorian Foreign Ministers who are helping to 
support this process and mediate this process, as well as the 
Vatican Nuncio, are actively engaged in working on all four 
parts of the agenda that the two sides have agreed to, that 
they believe there continue to be reasons for optimism, that 
movement is possible, as do the opposition members taking part 
in the technical working groups on the different agenda items. 
Again, I do not think--and I want to emphasize that the process 
is important because it is the first time they have had such a 
process, but it cannot be endless.
    The Chairman. Well, that is my point. That is what I want 
to know.
    How many more people have to be tortured? How many more 
have to be arrested? How many more have to be fired upon before 
we say, well, guess what, the process is not working? Because 
when you are in the midst of supposedly a dialogue and you 
arrest 250 peaceful protestors, you are not sending a message 
that such dialogue is moving in a direction in which you intend 
to ultimately ensure that a possibility for a negotiated 
settlement will be achieved. And when President Maduro puts op-
eds here in the United States that say, please, do not 
intervene, while he systematically abuses the rights of his own 
citizens, I just think that we are at a point in time where the 
actions belie the words.
    And so I appreciate what those countries are doing, even 
though I must say in the case of some of those countries, you 
know, it is difficult for Colombia when there are several 
million Colombians in Venezuela and when they are hosting the 
discussions with the FARC under the auspices, even though they 
are not hosting it--the Cubans are hosting it, the discussions 
with the FARC--for them to pressure the Venezuelan Government 
very much.
    Ms. Jacobson. You know, I think one of the things that is 
most important, as these talks move forward, is whether or not 
significant elements of the opposition remain committed to 
those talks. What we do not want to do is something that would 
abandon their effort in those talks. You are absolutely right. 
The actions taken by the Venezuelan Government today do not 
support the efforts at the dialogue table. They are not the 
kinds of efforts that members in a dialogue, in a negotiation 
take to give confidence to that process. And I want to be clear 
about that. And you are right. We need to be clear about that 
regardless of whether that is viewed as interference. So we are 
not going to----
    The Chairman. Where is the administration's calibration? 
Where is the point or sense--I am not asking for a redline 
because that creates all types of trouble. But I am asking for 
some sense of when is it that we say, well, you continue to 
arrest students, you continue to torture people, you use the 
judiciary system as a system of oppression, not a system of 
justice, you can have dialogues endlessly while you go ahead 
and do all those things--when is it that we think that it is 
time to take a more affirmative stance such as targeted 
sanctions?
    Ms. Jacobson. I think that point comes--and I do not know 
that I want to lay out the exact criteria that would be the 
equivalent of a redline. But I do think it does not come 1 
month after they started, which is what we are at. I also do 
not think it comes while there are significant members of the 
opposition believing that there still is a possibility for 
positive movement. So I think it comes in consultation with 
people who are engaged in the talks themselves.
    The Chairman. Is time the question? Let us give it 2 
months, 3 months, 4 months? Is it the number of people who get 
arrested? Is it when those who are participating say, you know 
what, this is not going anywhere?
    Mr. Malinowski. I think there are many factors, Mr. 
Chairman, but the most important factor for me, as I approach 
these problems, whether it is in Venezuela, whether it is in 
Russia, whether it is in Burma, whether it is in any country 
that is undergoing this kind of internal conflict over 
fundamental issues of democracy and human rights--for me, the 
most important question is the judgment of the people who are 
trying to help on the ground. And that is also not a black and 
white question because, as we all know, there are differences 
within the opposition.
    But I can say that the judgments that we have made and that 
we are making on literally a day-by-day basis are informed by 
consultation with very, very brave and dedicated people in 
Venezuela who have chosen for now to give this dialogue a 
chance and who may not choose to give it a chance next week or 
the week after if these arrests continue. So I think it is 
fundamentally their judgment to make, first and foremost, at 
what point do we as an opposition give this dialogue another 
day, another week, given what is happening, and in consultation 
with them, informed by their judgment, we will make our 
judgment.
    The Chairman. Do you believe that Venezuela's student 
movement and other sectors of civil society should be included 
in the dialogues between the government and the opposition?
    Ms. Jacobson. We have been very clear, and I think I 
mentioned this in the testimony. We absolutely believe that 
they have to be heard. They are a very important voice. They 
are not at the table. Including those who are at the table, the 
MUD (Democratic Unity Roundtable), the members of the 
opposition who are participating in the dialogue have said they 
believe the voices of the students have got to be heard in this 
discussion. So absolutely, their voice is critical.
    The Chairman. Well, let me just say, as I turn to Senator 
Corker, my personal patience is waning. I do not want to sit by 
and see hundreds arrested, people tortured. I think the human 
rights report, unless you want to dispute it here, is pretty 
exacting. We will hear from them in the second panel.
    I would really urge members to read the report because if 
you can read the report and believe that nothing should be 
done, then there is something wrong.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, again for having 
this hearing, and I appreciate the leadership you and Senator 
Rubio have shown on this issue and causing this to happen. And 
I especially appreciate having a hearing in that I know there 
is some legislation that is proposed right now. I know the 
administration officials always come in here and thank us for 
our help, but they really do not want it at the end of the day 
and do what they can to keep that from occurring.
    So what I would like to ask today, because I know at some 
point we will need to be dealing with some legislation that has 
been put forth, is to, first, understand where we are today, 
where it is that if you had the ability to affect--I know we 
have this dialogue underway. I know the country is deeply 
divided. I know they have got all kinds of economic issues. And 
it is really at a critical juncture.
    What are the steps that you would like to see the country 
move through over the course of the next 6 months? What is it 
you are trying to make happen over this next 6 months?
    And then I want to move to some of the tools that Menendez 
and Rubio have put forth and understand how they would or would 
not be effective from your standpoint.
    Ms. Jacobson. Thank you, Senator Corker.
    Let me start out by saying that the central goal that we 
have is to help Venezuelans move their country toward 
democracy, toward respect for human rights. Ultimately the 
steps that are taken to get there are for Venezuelans to 
decide, but you can see in the agenda item of this dialogue 
some of the issues that we would like to see move forward. They 
are things like a real discussion and movement on the political 
prisoners, the many people who have been detained and should be 
released, a real discussion on the incidents of violence that 
took place during these protests. That is the reason a truth 
commission has been set up as part of--or will be set up as 
part of the dialogue.
    There is also the issue--and I think this was a crucial one 
as part of the dialogue. It has been called the ``rebalancing'' 
of public institutions, the notion that positions on the 
Supreme Court, the electoral tribunal, indeed, the management 
of the national assembly are vacant because the government has 
not allowed elections to be held for those jobs and they have 
packed those entities with government officials such that the 
opposition has no voice in those institutions who run the 
branches of government in the elections that are held in 
Venezuela. So a level playing field is critical for future 
elections and legislation.
    Those are some of the kinds of steps. Obviously, 
commitments to respect human rights, to reduce the violence are 
critical as we move forward. Easing and ending the restrictions 
on freedom of expression, freedom of association and assembly, 
the crackdown on civil society I will leave to Tom who is a 
greater expert on some of those aspects. But those are the 
kinds of steps that have to be taken, it seems to us, for us to 
achieve the goal. Again, that is for the Venezuelans to have a 
discussion on moving towards greater democracy.
    Senator Corker. So, for instance, we, as you well know, 
have had discussions about Ukraine and sanctions. We actually 
passed some out of this committee and may be looking at more. I 
hope we are. But the discussions have been around really sort 
of tangible things that you can see and touch and feel and you 
understand whether they are happening or not.
    The things you just laid out, obviously, are very, very 
important. There is no fine line in each of those. In some 
cases, maybe the release of prisoners and that kind of thing. 
That is a fine line.
    So as you look at two members of our committee that care 
deeply about this and others who want to make sure we 
understand the issue more fully and want to look seriously at 
what it is they propose, sanctions are one of the tools that 
have been put forth. And could you talk to me a little bit 
about how from your perspective targeted sanctions--first of 
all, what kind of targeted sanctions would you believe, if any, 
would work in this case? And again, what would be those things 
that you would measure relative to whether they were being 
effective or needed to be applied? A little bit of a twist on 
the question that Chairman Menendez asked.
    Ms. Jacobson. You know, I would like to ask Tom to address 
this as well because he has a great deal of experience.
    One of the specific issues, obviously, that has been raised 
in the draft legislation is the use of sanctions in the 
specific area of human rights abuses and those who have either 
directed or been part of human rights abuses. We have certainly 
looked at and have been very forthright about the fact that we 
are obviously considering and consider part of the tools of our 
foreign policy and diplomacy sanctions, if you will, such as 
revocation of visas and other economic sanctions, whether it is 
asset blocking or other things, under the authorities that we 
have, that we already have.
    Senator Corker. I think sometimes, you know, Congress feels 
like that even though you have those authorities, which we are 
witnessing in other countries right now, they are not utilized, 
and sometimes Congress wants to push you along. So if we were 
going to nudge you along, how would you like to be nudged in 
that regard?
    Ms. Jacobson. Well, I think you will not necessarily be 
surprised to hear me say that we actually think we do not 
necessarily need the nudge. We are considering these things. We 
do think that right now they would be counterproductive, that 
they would enable the Venezuelan Government to go back to that 
sort of victim mentality using us, but there may well come a 
time at some point in the future when they would be useful if 
there has not been movement at the table. I may leave to my 
colleague to express when he believes they would be useful. 
Targeted sanctions have been useful around the issue of human 
rights in other cases. But I think they would have to be very 
specific, and we would have to be looking at a sticking point 
in an area of negotiation where things were not moving forward.
    Senator Corker. So you would be concerned that they today 
might be a unifying thing within the government versus 
something that would be helpful towards moving them along, 
before we move to Tom.
    Ms. Jacobson. Absolutely. Unfortunately, I do think they 
would be a unifying factor in the government, and I think they 
would serve to reinforce the narrative of this being about the 
Venezuelan Government standing up to the United States, 
unfortunately, which is not a narrative we want to see. This is 
about the Venezuelans standing up for their own rights.
    Mr. Malinowski. I am a big believer in targeted sanctions, 
as many of you know. We have employed them in a number of 
contexts that are not entirely different from this one. I would 
point to Burma over the years as a place where targeted 
sanctions were particularly effective in not just highlighting 
human rights abuses, because that is symbolic, but in 
empowering an opposition to pursue success in dialogue with an 
authoritarian regime. We are employing them in Russia and 
Ukraine in a somewhat different context but one that is rooted 
in a human rights crisis. They work in some places. They do not 
work everywhere. Timing is extremely important.
    And as I mentioned before, I think one of the most 
important factors that we have to consider, again on a day-by-
day, week-by-week basis, is what are the people on the ground 
telling us. What is going to be helpful to them? What is going 
to empower them? What do they think is going to be effective as 
a way of dividing the government in question from its support 
base? What is going to give them leverage?
    So for me, this is really a day-by-day, week-by-week 
question in Venezuela. I have absolutely no objection in 
principle to the use of targeted sanction, and I have got no 
objection to being nudged because that is Congress' role. But I 
do want to make sure that if we do this, we do it at a time----
    The Chairman. This is refreshing.
    Mr. Malinowski [continuing]. That is going to give us the 
best chance of achieving our objectives.
    Let me suggest one other factor, and that is that wherever 
we have used targeted sanctions, it has been extremely 
important to try to make the pressure that we apply as 
multilateral as possible, whether that is getting other 
countries to apply sanctions of their own or just diplomatic 
pressure. And that is another element of the timing here. I 
want to make sure that if and when we take this step, if we 
feel that we need to, we do it at a moment where it will be 
best timed to generate multilateral pressure. And I think a 
question that some of our partners will ask is have we given 
this dialogue enough of a chance. Now, one may feel that that 
time has come. One may feel that that time has not yet come 
yet, but that is an extremely important consideration I think 
we have to take into consideration.
    Senator Corker. Mr. Chairman, thank you.
    I want to thank you, Tom, for the tremendous efforts you 
have put forth in other arenas relative to human rights. It 
seems to me there may be a little daylight between the two of 
you in your presentations today, and my guess is other members 
of the committee may exploit that. But we thank you both for 
being here and we look forward to----
    Mr. Malinowski. We both agree that this is not the time to 
use the tool, and I think we both agree that it is a 
potentially effective tool. It is a question of picking the 
right time to make sure that we achieve the effect that we 
want.
    The Chairman. Before I call on Senator Durbin, let me just 
make two observations--I cannot resist--especially for the 
ranking member, who I think will appreciate one of these 
observations.
    I have never had the administration--this or other ones, 
not just this administration, to be very fair--ever look at me 
on the question of sanctions and suggest to me that it is not a 
unifying factor for the government that is targeted. I heard 
that about Iran. We have heard it to some degree about Russia. 
So that question of a unifying factor for the government that 
is targeted is always going to be a reality. They will always 
feel like this is the United States and others trying to impact 
us. So I am not greatly moved by that.
    And to the extent they will consider themselves victims, 
well, the only victims are the members of civil society who are 
suffering in jails. The only victims being tortured are members 
of civil society. The only people who are victims are political 
leaders who are in jail simply because they have a different 
view than the government. They are the ultimate victims here. 
So I am not too worried about Maduro feeling like a victim, 
although I do appreciate the issue of timing, but we may have a 
difference at some point in time as to when that is the 
appropriate time.
    Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman.
    Thank you for your testimony.
    Senator McCain and I and others on the panel visited 
Ukraine 6 or so weeks ago, and I came back to Chicago to report 
to the Ukrainian Americans--and we have a lot of them, maybe 
the most in the country--in Ukrainian Village, a section of 
Chicago. And I have noted that there were many, many 
Ukrainians, 500 or more, Poles, Lithuanians, Latvians, 
Estonians, Georgians, and Venezuelans. And we talked for a few 
minutes afterward, and I could not help but be struck by some 
parallels and similarities when we look at realpolitik in the 
21st century between Nicolas Maduro and Vladimir Putin. Both of 
them have the military and the police force behind them, but 
their club, their political club, their source of extortion is 
energy.
    And then I take a look at the vote in the United Nations 
when it comes to condemning Vladimir Putin's aggression in 
Ukraine. And the list of the nations that voted against us on 
the side of Putin include Argentina, Bolivia, Brazil, Cuba, 
Dominica, Ecuador, El Salvador, Guyana, Jamaica, Nicaragua, 
Paraguay, Saint Kitts and Nevis, Saint Lucia, Saint Vincent and 
the Grenadines, Suriname, Uruguay, and Venezuela. Many of these 
nations have suffered under military regimes, but they were 
prepared to look the other way when it came to Vladimir Putin 
in the Ukraine. And I think it has a lot to do with the fact 
that they are under the same pressure when it comes to energy 
and when it comes to Venezuelan oil.
    We saw the same thing in the closing of the OAS meeting 
which I think was an indication that they feel the pressure 
that comes on them from the oil exports from Venezuela.
    I would like to ask you, either or both, to comment on 
that, but I would like you to also comment on something else. 
One of the major customers when it comes to Venezuelan oil and 
the purchase of that commodity is the United States of America. 
How do we reconcile this notion that we are trying to at least 
indirectly pressure Venezuela into positive political change 
while we subscribe to--or at least while we are part of the 
support of his economy through the purchase of oil? Would that 
not be very obvious for us to lessen our dependence on 
Venezuelan oil as an indication of our feelings about their 
political regime?
    Ms. Jacobson. Thank you, Senator Durbin.
    Let me start out by saying that, not being an expert on oil 
or the administration's point person on energy policy, I have 
long ago recognized that I dare not venture too far into making 
comments about our energy policy or who we purchase oil from to 
mess up the energy market. So I am going to be a little 
tentative there.
    But I will say that one of the things I think is important 
over the last couple of years is you have seen a steady 
downward trend in imports from Venezuela, United States imports 
of Venezuelan oil, a steady downward trend. I believe the 
percentage over the last decade or so is 10 percent or more 
reduction in Venezuelan oil coming into the United States. And 
I think that is likely to continue as U.S. production 
increases.
    So I do think that our dependence and our purchase of 
Venezuelan oil is likely to continue to decrease. It is one of 
the reasons the Venezuelans have been seeking other markets, 
including the Chinese.
    On the question of the vote in the United Nations, in 
particular, and also in the OAS, let me say that in the U.N., 
the countries that you mentioned--I would split them a little 
bit because the ones that I think we are really talking about 
are the Caribbean countries and some of the Central American 
countries who are highly dependent on imported oil, which has 
been a serious problem for those countries for a long time. It 
has been a problem because of cost, which is why they are so 
attracted to subsidized heavy oil, but it has also been a 
problem because of simple dependence on one source of energy. 
And it has been something that we have been working with those 
countries on for a long time, but I think it has become a more 
acute problem as we have all realized over the last few years 
that it is not just an economic problem and an environmental 
problem. It is also a political problem.
    And so we have been talking to those countries about how 
they diversify their sources of energy, about how we can help 
them with that process. And we have also begun to talk with 
neighbors who can play a role in that process. When the 
President was in Toluca in Mexico in March for the North 
American Leaders Summit, he talked extensively with the leaders 
of Canada and Mexico about how we could work together to help 
the countries of Central America and the Caribbean because all 
of us are increasing our energy production. And the countries 
in those two subregions can only really increase their own 
attractiveness to investors, whether it is in other forms of 
fossil fuel like natural gas or it is in renewables, as a 
regional market.
    Senator Durbin. You are taking this off in an area which is 
very interesting and should be the subject of a hearing. What I 
am asking you is when it comes to our importing Venezuelan 
oil--you have said we have lessened our imports because we are 
producing more. We now have an intervening situation, post-
Chavez. We have a situation in Venezuela that we are trying to 
show some leadership in suggesting they democratize their own 
nation. I do not think the natural diminishing of our imports, 
as we have more fracking in the United States, is what I am 
talking about. I am talking about whether or not we make a 
statement or prepare to make a statement that if Venezuela is 
not going to be more forthcoming in negotiations or in 
democratization, we are going to start not gradually but 
eliminating our import of Venezuelan oil. Why would we not say 
that?
    Ms. Jacobson. Senator, I do not know what the cutoff in our 
purchase of Venezuelan oil would do to oil and gas prices in 
the United States, and I do not know what our policy--the 
impact on our economy would be of no longer purchasing 
Venezuelan oil. We have a long, and our oil companies have 
long, commercial relationships with Venezuela. So I just cannot 
tell you that that would be something that economically from 
one day to the next would be something we would do.
    Senator Durbin. You have just made such an argument against 
sanctions by saying this could hurt our country if we impose 
sanctions on Venezuela. How are we ever going to rally 
countries around the world to join us in any sanctions regime 
related to Ukraine or related to Venezuela if the first line of 
defense is, please, I do not want to inconvenience us? Now you 
have just said sanctions are really not going to be worth the 
conversation. We cannot have it both ways. I do not want to see 
our military engaged around the world. I want to see effective 
sanctions regimes, but if you start saying, you know, we may 
feel this if we impose some sanctions, for goodness sakes, is 
that not what it is all about, that we feel it, at least 
temporarily to solve a problem so we avoid sending in military 
force?
    Mr. Malinowski. In the conversation about sanctions, energy 
sanctions are the nuclear option in all of these contexts, and 
it is true in the Russia-Ukraine situation as well, as you 
know, Senator, where we have started with targeted 
individualized sanctions on individuals, then on entities, then 
on companies, and have made clear that we are prepared to go to 
much deeper sanctions against sectors, one of which, in the 
case of Russia, is the energy sector, if the situation demands 
it, but recognizing that of all the sanctions that one can 
consider in a situation like that, that would be the one with 
the greatest economic costs, not just for us but for the global 
economy. All sanctions have costs, and absolutely you cannot 
have an effective sanction that does not hurt anybody. But one 
does have to take into account the costs, and I think in any of 
these situations, if we go down the sanctions route, I think we 
would probably begin with carefully targeted and calibrated 
sanctions which I think generally tend to be effective on their 
own.
    Senator Durbin. Thank you.
    Ms. Jacobson. Can I have one more point? I am sorry, 
Senator.
    That is exactly right. But part of the reason that we have 
not looked at that is really not just about us. It is about the 
Venezuelan people that would be hurt by such a cutoff as well.
    Senator Durbin. I think you continue to make arguments 
against sanctions. And I have to ask you, What is your 
alternative? I mean, as Senator Menendez has said, every time 
we start to impose sanctions, they say, well, you are just 
going to unify the country that we are targeting for sanctions. 
And if we start with the premise that we cannot do anything 
that might affect the Venezuelan economy because it will hurt 
innocent people, we find ourselves, at the end of the day, 
saying, well, there just are not many sanctions. You know, 
prohibiting John McCain from visiting Russia I am sure was a 
great blow, but he has somehow weathered that storm. But we 
have to think in terms of if we are not going to use military 
force, what are sanctions that might result in a positive 
outcome.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman and the ranking 
member, for holding this hearing.
    I want to bring some clarity to this hearing. I appreciate 
very much Senator Durbin's voice on this issue, and I agree 
with just about everything he has said. But I want to refocus 
us back on what this hearing is about.
    The purpose of this hearing is that there has been a bill 
filed in the Congress to sanction individuals related to and in 
the Government of Venezuela for human rights violations 
committed against their own people. People have been murdered 
in Venezuela. People are detained indefinitely in Venezuela. 
Even as we speak, Leopoldo Lopez--his hearing has, once again, 
been indefinitely postponed. There was a young man sodomized in 
Venezuela by government forces. Women have been threatened, 
threatened with rape in Venezuela by government forces and 
those aligned with the government.
    What we are talking about here are sanctions against 
individuals responsible for human rights violations. It is 
typical in this process to set up these straw men, oh, we are 
not going to send boots on the ground, we are not going to 
sanction the oil industry. The bill we have filed does not do 
any of that. We have filed a piece of legislation, and the 
purpose of this hearing is to call attention to human rights 
violations in Venezuela. And what we are saying is we should 
sanction human rights violators who, by the way, happen to be 
people that travel to the United States with impunity, buy 
properties in the United States, laugh at us along the way, 
invest in our banks, send their kids to our schools. They have 
zero respect for this Government.
    What I have heard here today in responses, we do not want 
to sanction these people because it might unite them against 
us. Let me give you a brief bulletin: They are already united 
against us, other than when they come here to benefit from our 
free society on weekends in Miami and then go back and live off 
their newfound millions and billions that they have stolen from 
the people of Venezuela.
    This is not a hearing on oil sanctions. There is no bill 
before us to sanction oil in Venezuela. This is a bill that we 
are hopefully going to get to to sanction human rights 
violators in Venezuela. What I heard today is we should not 
sanction human rights violators because it might disrupt the 
process that is going on in Venezuela. Well, we sanctioned 
human rights violators in Russia. Why is what is happening in 
Russia more important than what is happening in Venezuela? We 
sanction human rights violators all the time, personally, 
individually, and we have their names. These are not even hard 
to find. These people brag about what they are doing in 
Venezuela. The only difference between those sanctions, those 
people and others, is they spend their weekends in Miami. They 
spend their weekends in Florida.
    Mr. Malinowski, you have in your statement--you talk about 
Globovision, which was once an independent television operation 
in Venezuela that actually covered news. What happened to 
Globovision? It was given over to allies of the Maduro regime 
and the Chavez regime. It is now a propaganda arm of Venezuela. 
Do you know where they live? Do you know where they live? They 
live in Miami. They own a multimillion dollar mansion in 
Cocoplum, in a very exclusive neighborhood in Miami. They drive 
up and down the streets in their fancy cars. They laugh at you 
and they laugh at us because they know they can get away with 
these things.
    So, let me ask you this. Who in the opposition in Venezuela 
has asked you not to impose sanctions against human rights 
violators because it might disrupt the dialogue? Who has asked 
you not to do that? Either one of you. Who has asked you not to 
impose sanctions against human rights violators among the 
opposition in Venezuela?
    Ms. Jacobson. Senator, I am just not comfortable sitting 
here and giving you individual names. Members of the MUD who 
are participating in the dialogue have discussed this with us.
    Senator Rubio. Listen to what you just told me: You are not 
comfortable telling me their names because you fear for their 
safety. What kind of dialogue is that? What kind of dialogue is 
that where the people that are involved in the dialogue cannot 
tell you what they really believe? That is a fake dialogue.
    So is it the policy now of the United States that as long 
as this dialogue is somewhat successful, we are going to forget 
the human rights violations? So we will just send a statement 
to condemn them, but we will not do anything about it.
    Ms. Jacobson. Absolutely not, and I think we have both said 
that we will speak out, we will make statements, but we will 
also consider those sanctions. As Assistant Secretary 
Malinowski said, we will keep considering that and we will use 
those when we think the time is right.
    Senator Rubio. So there is a timing element when it comes 
to human rights violations? In essence, there is a time when 
human rights violations are ripe?
    Ms. Jacobson. There is a timing element when it comes to 
the response of a particular tactic on human rights violations, 
not our condemnation.
    Senator Rubio. Give me an example where we have held back 
on human rights violations sanctions because of timing anywhere 
else in the world. Give me an example of when the United States 
has said, we know you have committed human rights violations, 
but we are not going to sanction you because we are waiting for 
something else to happen. Give me an example of when we have 
done that successfully. Mr. Malinowski, you have been involved 
in this.
    Mr. Malinowski. I mentioned Burma as a case where we have 
applied sanctions very effectively over time. There are still 
human rights violations going on in Burma, but we have a 
process. We have a democratic process, a process of dialogue. 
And in consultation with the opposition, we have not continued 
to impose additional targeted sanctions over the last couple of 
years but remain ready----
    Senator Rubio. Why did the dialogue happen in Burma?
    Mr. Malinowski. In Burma?
    Senator Rubio. Yes. What was one of the things that led to 
the dialogue being successful?
    Mr. Malinowski. As I acknowledged a few moments ago, 
sanctions in that case did. We had an opposition in Burma that 
made very, very clear that at that point it was important and 
useful and effective for the United States----
    Senator Rubio. I agree with what you said. This is not a 
United States-Venezuela issue. This is for the Venezuelan 
people to decide what they want to do with the future of their 
politics. The purpose of our policy here is not the change the 
government of Venezuela, despite Maduro's claims. That is not 
for us to decide. That is for the people of Venezuela to 
decide. What we are saying is we have individuals that benefit 
greatly from the economy of the United States, particularly in 
my State. They benefit greatly from what they do in this 
country with our banks, our schools, our businesses. They 
invest with impunity throughout Florida and the country. These 
people also happen to be human rights violators or the 
associates of human rights violators. And all I am saying is we 
should sanction them for what they did. This is not about 
changing the government in Venezuela. That is up to the people 
of Venezuela to decide. This is about punishing and shaming 
individuals responsible for human rights violations.
    And I guess, to your point, Mr. Malinowski--I mean, I know 
your reputation. The first time we met was in a prison in 
Libya. We were not living there, either one of us. I mean, we 
met there, as we were touring it. [Laughter.]
    This is what you have dedicated your life to. I know you 
are not here today to argue that we should somehow look the 
other way on human rights sanctions----
    Mr. Malinowski. I am not.
    Senator Rubio [continuing]. Until the appropriate time.
    Mr. Malinowski. Sanctions serve two purposes in a situation 
like this.
    One is accountability, and there are times when we impose 
sanctions on people who have done horrible things because they 
have done horrible things and because it is the only thing we 
can do to make sure that they pay a price.
    There are other times when we impose sanctions and we 
determine the timing of the imposition of sanctions because we 
think there is a chance to make the kind of political progress 
that will end those human rights violations.
    Now, in a country like North Korea, for example, there is 
not a scintilla of a chance that I see of political progress 
that is going to free people from concentration camps. In a 
situation like that, the role of sanctions is to highlight the 
problem and to impose accountability.
    On Russia, there is no dialogue.
    Senator Rubio. I know, but I cannot believe that your 
position, given your history, is that the United States must 
now--so now our message to the people of Venezuela and to those 
who have suffered at the hands of these brutal oppressors is I 
am so sorry that you were sodomized by a pipe or by the butt of 
a rifle, but we think, for the sake of your country, that we 
are going to hold off shaming the people and sanctioning the 
people responsible for ordering that because we think there 
might be some sort of dialogue that may one day allow you to 
own one newspaper that is free in Venezuela, or we think there 
might be a day where you might technically allow them to let 
you protest somewhere at a time of their choosing and of their 
way.
    How can that be our policy? How can the United States not 
firmly be on the side of people who are being violated in this 
systemic way? I just do not understand how our foreign policy 
can be about that.
    We are not asking for sanctions. We are not calling for an 
oil embargo or anything of that nature. We are calling on 
identifying human rights violators in Venezuela, naming them by 
name, and sanctioning them for what they have done. And I just 
do not understand how we can sit here and say that the time is 
not right to do that. I do not understand how we can say we 
should wait for some point in the future when the timing might 
be right to do that because by admission, what you are saying 
is that if the Venezuelan Government does certain things over 
the next few months, that day may never come. And I just do not 
understand how that could be our foreign policy.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And to the witnesses, I hope I do not trod ground that was 
on before I walked in. But I am a little interested in your 
take on the Venezuelan economy right now. I view much of the 
unrest as being driven by kind of an autocratic, oil-dominated 
economy where corrupt people at the top skim off a lot, but it 
is probably an unsustainable economic model. And I would view 
that as driving increasing political unrest and creating a 
demand for and opportunity for political change in Venezuela. 
But if you could begin there. Talk a little bit about the state 
of the economy in the early months of this new Maduro 
government.
    Ms. Jacobson. I think that the economic situation, Senator, 
is indeed increasingly unsustainable. You have a situation in 
which I think the latest inflation figures are 57.3 percent, 
and continuing to go up, among the highest in the world.
    Senator Kaine. In a world where inflation is generally 
very, very low right now.
    Ms. Jacobson. Correct. And you have recent wage increases 
that have been granted, which cannot possibly keep up with 
inflation like that and, therefore, will not really satisfy the 
needs of Venezuelans. But moreover, you have a situation in 
which Venezuelans cannot find basic foodstuffs. A country with 
among the largest, if not the largest oil reserves in the world 
where people cannot find basic goods on the shelves, even if 
they had the money to buy them.
    So you also have a situation in which foreign businesses 
cannot get the exchange to take their----
    Senator Kaine. Holdings out of the country.
    Ms. Jacobson. Foreign exchange out of the country. They 
cannot operate productively in the country.
    Senator Kaine. So foreign direct investment must have 
slowed.
    Ms. Jacobson. It is drying up significantly. There is 
really a serious problem that foreign businesses are having, 
but Venezuelan businesses are having difficulty. That is why 
there is an economic dialogue that is taking place at the same 
time to try and come up with solutions, but so far the 
government's exhortations in that conversation have largely 
been to increase national production. There is no incentive at 
this point to do so. Major economic changes have to be made, 
and I am sure you will hear from Moises Naim a bit more about 
that. It is not sustainable.
    Senator Kaine. And the changes generally do not get made if 
the autocrats feel like they can use their natural resource 
revenues to just kind of keep things limping along. You have 
all kinds of structural changes that need to be made.
    Ms. Jacobson. Right, and I think high oil prices, 
obviously, have enabled this to continue, and most of the 
analysts suggest that this is not a situation that can change 
overnight. This is going to take serious structural changes in 
Venezuela and some time. And I am concerned that without a 
democratic space in which people feel they have an opportunity 
to express their opinion, to speak freely, hard economic 
changes are not going to be accepted by people if you cannot 
have a debate and a dialogue about them.
    Senator Kaine. What is the current government saying about 
making economic reforms or doing fundamental economic change? 
Is it just not even on the radar screen?
    Ms. Jacobson. I have to tell you so far we are seeing very 
little acceptance that real change is necessary. There is a 
willingness for the first time to acknowledge discussion has to 
be had. What we are not seeing yet is a willingness to discuss 
real economic policy change. As I say, so far there has been an 
exhortation to greater national production by manufacturers and 
industry, not yet really changes in economic policy, which we 
have understood to have been urged by many of their neighbors 
as well because this is impacting the region too.
    Senator Kaine. What is the current practice of the 
government with respect to oil subsidies to other nations? They 
seemed like they were purchasing foreign policy alliances 
through subsidized oil. But with a challenged economy and 
inflation being high and people not having basic foodstuffs, 
devoting resources to adventurism in foreign policy would seem 
to be less and less tenable economically. Is the Maduro 
government changing the Chavez practice with respect to trying 
to buy friends through subsidized exports?
    Ms. Jacobson. My understanding is that that is a 
fundamental part of Venezuelan policy that continues, Petro 
Caribe continues, although it is difficult to sustain 
economically. It has been cut back. There have been reductions 
in the amount of oil that some countries are receiving under 
Petro Caribe. There has been a reduction in the generosity of 
terms that new agreements have provided, and some countries 
have chosen not to go into the agreement because of that, but 
it continues in many cases. And it clearly puts a strain on the 
government in some cases to continue these kinds of deals.
    Senator Kaine. Here is a question that is probably 
impossible to answer, but to kind of get me just oriented, I 
would like each of your opinions.
    The civil unrest in Venezuela is driven primarily by 
resistance to an autocratic government that abuses human rights 
or driven primarily by popular understanding that the economy 
is in real trouble and people do not have the economic 
opportunities that they want?
    Ms. Jacobson. My answer would be absolutely both, and I 
think the two, unfortunately, are now in a very bad reinforcing 
cycle.
    Mr. Malinowski. It is the interplay between the two I 
think. People protest when they feel that the economic 
conditions that they are suffering are, in part, the result of 
not having representation, not having accountability, not 
having transparency when they sense there is a political cause 
for economic suffering.
    Senator Kaine. So there is a political cause for economic 
suffering and the leaders are not taking the steps needed and 
not tackling the fundamental changes necessary to change the 
economic situation. That will continue to embolden opposition, 
deepen the roots----
    Ms. Jacobson. And there is no political space. None of the 
institutions give the opposition political space to represent 
those views.
    Senator Kaine. When the elections were held and Maduro won 
over the opposition, I think I was in a tiny camp that was not 
sure it would be a good for the opposition to win these 
elections because the accumulated economic challenges were so 
massive that there was going to be some kind of a collapse and 
then a blame game, and it would be better for the people to get 
blamed who actually put in place all the economic policies that 
are fomenting the collapse rather than have somebody get in and 
then be blamed for a collapse that they frankly did not create. 
I am not 100 percent sure of my confidence level of my own 
opinion about that because, obviously, you see all the things 
that the Maduro government is doing that are so horrible.
    But I think the economic situation we are seeing is going 
to continue to get worse and worse and worse. There is going to 
be a resistance to change and an attempt to use kind of strong 
words and carisma as a substitute for policy change. It is 
going to continue to make the economy worse and worse, and that 
is going to create even more momentum on the opposition side. 
And we have to find the policies where we can--again, it is for 
the Venezuelan people to decide. But this opposition is going 
to just assume more and more momentum because of these economic 
factors, and if there is a targeted set of strategies that we 
can embrace to paint a different vision for the Venezuelan 
economy, I think that would be a good thing for us to do.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Senator Kaine just used the words ``it is for the 
Venezuelan people to decide,'' but what prospect do they really 
have of actually making an informed decision?
    Senator Durbin made the connection, and I was with him in 
Ukraine and also with Senator McCain in Moldova. And one of the 
takeaways from those trips is that the propaganda of Vladimir 
Putin is incredibly effective and that America, the West, has 
pretty well unilaterally withdrawn from efforts of trying to 
inform those populations that are subjected to that propaganda. 
So let me really start there.
    To what extent is there any free press still existing in 
Venezuela?
    Mr. Malinowski. Well, I think as we both outlined in our 
testimony, one of the central strategies of the Venezuelan 
Government under both Chavez and Maduro has been to steadily 
dismantle the free press, particularly on television, which is 
what, as in many countries, most people get their news from, by 
shutting down stations, by forcing them to take new ownership, 
through threats, intimidation, by beating up people on the 
streets who are taking video which eventually is then evidence 
that the TV stations use of abuses that are being committed. 
And that creates a climate in which the government is able to 
act with greater impunity and fewer checks.
    Senator Johnson. Correct. My question is, Is there an 
existence of any counter to that within Venezuela or from 
without?
    Ms. Jacobson. The only thing that I would say is there 
are--I mean, one of the reasons you saw Colombia's NTN24 
expelled and then reinvited into Colombia--I am not sure if 
they are operating at this point--is that foreign stations 
were, of course, still operating. And so for those who had 
cable or had packages that had foreign stations, they were 
still able to see Venezuelan news being broadcast by foreign 
stations. This is not the way Venezuelans should be getting 
their news, obviously. So there are ways still or via the 
Internet or other things. But in terms of the mass of 
Venezuelans to have complete access to media within Venezuela, 
it is very difficult. There are still ways, but it is not 
massive and broadcast.
    Senator Johnson. Again, so I agree with Senator Rubio that 
I think targeted sanctions to highlight these gross abuses of 
human rights is a good thing. We should implement them 
immediately.
    But the point I am trying to make is I think a statement 
by--one of the witnesses said we have to speak out, we have to 
make statements. Well, that is good for speaking out and making 
statements here in America, but how does it get to the people 
in Venezuela? What is the United States doing not only just in 
Venezuela but also in the rest of South America and Central 
America where certainly over my lifetime my impression is we 
are not moving in a direction of democracy? We are moving away 
from democracy. We are moving toward greater socialism. What is 
America doing in terms of a robust effort to provide 
information to the population of those countries so they are 
not subject to the propaganda?
    Mr. Malinowski. There are some things that we can do and we 
do actually have programs inside Venezuela--I do not want to go 
into detail here, but we can come and talk to you about them--
that do help civil society groups, NGO's, activists get access 
to information, particularly online. They do get information 
through social media. That is not shut down. My Twitter feed 
today is full of messages from Venezuelans who know about this 
hearing, and they are going to know every word that was spoken 
here. So it is not a closed information space. This is a 
contested space in which the Venezuelan opposition and civil 
society with support from their friends outside of Venezuela 
are still holding their own.
    Senator Johnson. What is the percentage of the population 
of Venezuela that has access to social media?
    Mr. Malinowski. I do not have a number for that, but I 
think among activists, it is extremely high. This is how they 
organize.
    Senator Johnson. But, I mean, the general population that 
are going to be voting--how many of those individuals actually 
have access to that type of information? I mean, is it high? Is 
it 90 percent? Is it 10 percent? And I guess my point was 
should we not know?
    Is there any attempt to broadcast over the airwaves, either 
TV or radio, more information in a far more robust fashion? And 
do you think that would be a good idea and not only in 
Venezuela, into other areas of South and Central America? 
Should America start broadcasting its values of freedom and 
democracy to the rest of the world? Have we withdrawn from the 
world from that standpoint? That is the impression I get.
    Ms. Jacobson. Senator, there is still a great of 
information that we get out, whether it is through Voice of 
America, Spanish language throughout the hemisphere, whether it 
is statements and other things that we get picked up on 
commercial stations throughout the hemisphere. I think our 
message is being picked up throughout the hemisphere both on 
commercial and other media. And I think it is absolutely true, 
as Tom says, that there are still media that people have access 
to in Venezuela. I do think also that the word gets around 
throughout Venezuelan society when we say things and when we 
make statements beyond activists in the population.
    Senator Johnson. Is it your impression that our efforts are 
winning that information war?
    Ms. Jacobson. No, I would not say that we are winning that 
information war yet because it is one of the reasons why, 
obviously, we continue to be disturbed about the restrictions 
on press freedom. It is not as open, obviously, a society as it 
should be.
    Senator Johnson. So that is my point. I think we are losing 
the information war whether it is in Eastern Europe, whether it 
is eastern Ukraine, whether it is in South and Central America, 
or whether it is in Venezuela. We are losing the war. I think 
we have to recognize that reality, and I think we have to beef 
up our efforts to a far greater extent. Would you agree or 
disagree with that?
    Mr. Malinowski. I would agree that we need to do more in 
Eastern Europe, for example, where we have a new threat that 5, 
10, 15 years ago, following the fall of the Berlin Wall, many 
people in the United States hoped we would not face again. I 
was just in the Baltic States. I know it is not the subject of 
this hearing, but people were talking about this, the 
propaganda coming from Russia and the need for all of us to 
come together with a plan to counter it. We are doing a great 
deal, but as the threat rises, we need to do more. There is no 
question.
    Senator Johnson. Anyway, my point to the authors of the 
bill would be I think that would be a good component of this 
bill. Add a section there for more robust activity in terms of 
information into Venezuela.
    Thank you.
    The Chairman. Thank you, Senator Johnson.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    I would note I just noticed that this morning there were 
four camps of protestors that were broken up and 283 students 
arrested. The repression of the government continues.
    I thank you, the witnesses, for being here.
    I would point out that on the issue of sanctions, the Burma 
sanctions originated in the Congress. The Iran sanctions 
initiated with the Congress over the objections of the 
administration. The North Korea sanctions were relaxed during 
the Bush administration in a vane hope that there would be an 
agreement on North Korea. We have now relaxed sanctions on Iran 
in what I believe will be the failed mission to achieve an 
enforceable and viable agreement with Iran on nuclear issues.
    So it sometimes is a bit entertaining when administration 
witnesses come forward and talk about how tough various 
administrations have been on sanctions when, by and large, they 
have initiated with the Congress. I particularly point to the 
Iran sanctions were vigorously opposed by the administration.
    I am curious. The witnesses, either one, would like to 
say--Cuba is heavily involved in Venezuela and in their 
activities. Maybe you could give the committee a quick readout 
on what the Cubans are doing in Venezuela.
    Ms. Jacobson. Well, what I can tell you, Senator, is that 
obviously what we know from media reporting, including 
Venezuelan-influenced government reporting----
    Senator McCain. I hope you have information besides what is 
in the media.
    Ms. Jacobson. The information that I have besides what is 
in the media I probably cannot discuss in this setting.
    But what we do know is that there are about----
    Senator McCain. Let me get this straight. You cannot 
discuss what Cuba is doing in Venezuela in an open hearing?
    Ms. Jacobson. To the extent that there was information that 
we have from intelligence sources, no, I would not. But the 
extent that we have information from other sources, that is 
what I am going to tell you.
    Information that we have is that there are about 40,000 
Cuban advisors in Venezuela. Those advisors are doctors, 
teachers. They are in military and other areas. The Maduro 
government has made clear that they will continue what they 
consider a strategic alliance with the Cuban Government. So, we 
know there are a lot of Cuban officials and Cuban citizens in 
Venezuela. We do not know exactly what other fields they may be 
active in, but we do know there are a lot of Cuban officials in 
Venezuela and they are very, very active, including within the 
government.
    Senator McCain. And that is an issue of significant 
concern?
    Ms. Jacobson. Yes, certainly.
    The Chairman. Senator McCain, would you yield for a moment?
    Senator McCain. Please.
    The Chairman. Let me tell you what the State Department 
seems unwilling to tell you. If you travel to Venezuela, at the 
airport you will probably go through Cuban security agents to 
get into the country. Rapid response brigades, which are 
perfected in Cuba, where state security dressed as civilians to 
make it look like the civilian population is responding to 
protests, are actively engaged on behalf of the Venezuelan 
Government in these activities. And that is just the beginning 
of the list. So, to your question, it is a very prominent role 
and it is not just about advisors either.
    Senator McCain. Well, I thank you, Mr. Chairman. I want to 
thank you and Senator Rubio for your active involvement and 
commitment to trying to see that Venezuelan people are given a 
better government. Our witnesses have testified that the 
economy continues to deteriorate. That is not because of 
anything the United States has done. It is because of the 
corrupt government and the Chavezista, I think was what it was 
called. Tom, I have forgotten the exact name.
    Mr. Malinowski. Your Spanish is better than mine, I am 
afraid.
    Senator McCain. You gave a book to President Obama at one 
of the gatherings early in the administration. I am sure that 
the President got a lot out of it.
    Here is the situation I think as my two colleagues stated 
in a far more articulate fashion than I can. We see a 
deteriorating situation. We see further arrests. We see further 
repression. We see penetration of Cuba throughout Venezuela, 
including in their, quote, ``law enforcement and military 
activities.'' And yes, it has been overshadowed by Ukraine and 
Syria and other issues. But in our own hemisphere, it seems to 
me that we should be paying a lot more attention. We should be 
considering a lot more actions without asking you to draw red 
lines.
    But is it not really unusual for us to basically sit and 
watch the situation in Venezuela continue to deteriorate to the 
great suffering of the people of Venezuela, not to mention 
suppression of all those freedoms?
    So I would argue that maybe the message that we are trying 
to send is that if you do not act in some fashion, then again 
this committee will probably feel that we are forced to act. 
And I do not count votes very well, but under the leadership of 
our chairman and Senator Corker and Senator Rubio's active 
involvement, I think a strong case has been made for us to at 
least consider sanctions. And I think it would be far better 
for us to work together in that effort rather than to just say, 
well, we are going to wait and see.
    So I thank you, Mr. Chairman, and I thank the witnesses.
    The Chairman. Thank you.
    I have just one final question. There is a vote going on, 
so I would like to finish with this panel, bring up the next, 
start the testimony, and then recess for a little bit.
    Madam Secretary, President Obama has determined that 
Venezuela has failed to meet its obligation under international 
narcotics agreements. The Treasury Department has designated 
members of the Venezuelan Government and military as kingpins, 
and the drugs flowing out of Venezuela have debilitating 
effects on levels of violence, governance, and the rule of law 
in Central America and the Caribbean. Given widespread signs of 
collusion between drug trafficking and the Venezuelan 
Government, does the situation in Venezuela constitute a 
national security threat to the United States?
    Ms. Jacobson. Thank you, Senator, for that question because 
it is a great concern.
    I think the answer to that question is that it is a very 
serious concern to us, a national security threat. I think the 
answer is we are extremely concerned about the amount of drugs 
coming out of Venezuela. We are particularly concerned about 
the impact on countries in Central America, Honduras in 
particular, but frankly Hispaniola, both the Dominican Republic 
and Haiti. There is a lot more that needs to be done.
    The Chairman. So does it constitute a national security 
threat?
    Ms. Jacobson. To the United States?
    The Chairman. Yes. If you have drugs flowing out of 
Venezuela into the hemisphere and I would say ultimately, from 
the routes of trafficking that I have seen, ultimately make it 
to the United States, either through ports or through boundary 
crossings or whatnot, is it a national security threat to the 
United States when elements of the government itself are 
involved, not because I say it, but because the administration 
says it?
    Ms. Jacobson. I think we have said often that the amount of 
drugs coming from the region, the effect of those drugs on 
governments and societies in terms of the corruption, the 
violence that they bring with them overall in the hemisphere is 
certainly a threat to the United States, a national security 
threat.
    The Chairman. Is the money that we are spending in Central 
America not--why? Because we are concerned about the violence, 
about the narcotics trafficking, about the gangs that all flow 
from this. Do we not view that as a threat to the national 
security of the United States?
    Ms. Jacobson. Yes. That is what I just said at the end of 
my statement, that I think if you look at the impact of the 
drug issue writ large and the impact it has, whether it is 
Central America, Mexico, the Caribbean, it is in fact a 
national security threat. That is why we spend the funds we do 
because it hollows out governments, institutions because it 
provokes the violence on the streets, because of the impact it 
has on our own society on the streets of the United States.
    The Chairman. Do you think that it affects the security of 
other countries in the region?
    Ms. Jacobson. Certainly.
    The Chairman. And do you think those countries understand 
that threat?
    Ms. Jacobson. Yes, I do.
    The Chairman. Let me ask you one final question. Without 
naming names, because I know in response to Senator Rubio, you 
said you were reticent to name names, can you tell the 
committee under the testimony that you have given that you have 
been specifically asked by members of the civil society that 
are in negotiations or not in negotiations not to pursue human 
rights sanctions?
    Ms. Jacobson. We have been specifically asked not to pursue 
sanctions at this time.
    The Chairman. No, I did not say that.
    Ms. Jacobson. I am sorry. Not to pursue them----
    The Chairman. Let me repeat it because maybe my English is 
a little difficult. Have you been asked by members of civil 
society, whether those who are at the negotiating or those who 
are not, not to pursue human rights violations sanctions? Yes 
or no?
    Ms. Jacobson. I am not sure exactly what you mean, if you 
mean as the bill now stands, economic sanctions against human 
rights--for human rights violators? Is that what you mean?
    The Chairman. Sanctions against human rights violators.
    Mr. Malinowski. The qualification is ``at this time.''
    Ms. Jacobson. The answer is yes, if you mean, yes, they 
have asked us not to pursue them at this time.
    The Chairman. Human rights violations sanctions.
    Ms. Jacobson. Yes.
    Mr. Malinowski. Those are the sanctions that are on the 
table.
    Ms. Jacobson. That are on the table, yes.
    The Chairman. Well, in a different setting then, we are 
going to find out who are the people who asked you. And I would 
love to hear from the civil society inside of Venezuela that 
they do not want to see sanctions against human rights 
violators. I would find that incredible, but if that is what 
the leadership of Venezuela of civil society wants, then I 
would be happy to hear it.
    Ms. Jacobson. I would never characterize it as civil 
society in Venezuela because I am well aware that there are 
many who do, and I respect that view as well.
    The Chairman. Okay. So now I am confused. Is it that there 
are some members of civil society who say do not violate civil 
rights and there are others who do say violate?
    Ms. Jacobson. Yes. There is a diversity of opinion on that 
subject.
    The Chairman. That is a little different.
    Ms. Jacobson. Yes. I would certainly acknowledge that.
    The Chairman. With the appreciation of the committee, this 
panel is excused.
    Let me call up a very important panel that we have, and I 
would like to get them set up. I welcome Patrick Duddy, who is 
the former U.S. Ambassador to Venezuela and visiting faculty at 
the Fuqua School of Business at Duke University, Mr. 
Ambassador, thank you for joining us; Moises Naim, who is a 
senior International Economics Associate of the Carnegie 
Endowment for International Peace; and Jose Miguel Vivanco, who 
is the executive director of the Americas Division at Human 
Rights Watch. Thank you all for being here.
    Let me remind all of you that your full statements will be 
included in the record, without objection.
    We have got what I hope will be about 10 minutes or so 
before our deadline to catch the first vote. So I think we can 
get the first of the testimony here, and then we will have to 
have a brief recess and come back for the rest.
    And with that, Ambassador Duddy, we will start with you.

STATEMENT OF HON. PATRICK D. DUDDY, VISITING FACULTY, THE FUQUA 
        SCHOOL OF BUSINESS, DUKE UNIVERSITY, DURHAM, NC

    Ambassador Duddy. Thank you, Mr. Chairman, members of the 
committee, Senator Rubio. I appreciate having the opportunity 
to share my observations today on the current situation.
    As we have heard, since President Chavez's death last 
March, circumstances in Venezuela have markedly deteriorated. 
The economy, in particular, was in terrible shape when Maduro 
took over. It is worse now. The murder rate in 2012, for 
instance, was startlingly high. By the end of 2013, it was even 
higher. In February of this year, the popular discontent with 
the deteriorating conditions boiled over into the most 
widespread antigovernment demonstrations the country has seen 
in more than a decade. The government of President Nicolas 
Maduro was clearly alarmed by the scope and intensity of the 
mass rallies and reacted brutally to the demonstrators.
    Now, in response to rising levels of international concern 
and the determination of the antigovernment protestors to 
continue to demonstrate, the Maduro administration agreed to 
participate in the talks we have heard referenced today, 
mediated by the Union of South American Nations, UNASUR, and 
the Vatican. Like most observers, I hope that this effort is 
successful in ending the violence and that it facilitates the 
development of a genuine dialogue. I do believe it is going to 
be difficult and the arrests, which again were mentioned this 
morning, underscore just how very difficult that may well be.
    Not all of the leadership of the opposition is 
participating, and the government continues to demonize the 
opposition and to suggest that the country has been the target 
economic warfare. And even since the beginning of these UNASUR-
sponsored talks, the Chavista-dominated Supreme Court announced 
a ruling asserting that the right to peacefully protest, quote/
unquote, ``without prior permission'' is not absolute, 
notwithstanding the language of article 68 of the Venezuelan 
constitution, a move which analysts have characterized as a 
clear effort to criminalize dissent.
    As we consider the current situation in Venezuela, I think 
it is important to recognize some of the factors that militate 
against an early solution. In this context, the dismal state of 
the economy is critical. Last year, Venezuela grew, according 
to some estimates, at an anemic 1.3 percent. I have seen 
estimates that were even lower. Most analysts expect the 
economy to be worse next year. The Central Bank's own figures 
for inflation suggest it has now climbed to 59 percent. And the 
scarcity of basic consumer goods has become so acute that 
standing in lines to buy foodstuffs has become a part of the 
daily routine for millions of Venezuelans. I might add to that 
as we consider the issue of the opposition, but also the larger 
public, staying in the street and continuing to put pressure on 
the government--this is one of the things that scarcity is 
doing.
    Now, recent polling suggests that the Venezuelan public is 
overwhelmingly unhappy with the current state of the country. 
According to a Datanalisis poll released just the other day, 
their unhappiness is at approximately 79.5 percent, and by a 
large majority, about 59.2 percent, they blame the Maduro 
administration for the mess.
    Increasingly, however, according to most of the polling I 
have seen, the public's unhappiness has not yet evolved into 
unambiguous majority support for the opposition. While support 
for Maduro has fallen, Chavismo retains a strong base even if 
it does not now enjoy majority support. Support for the 
opposition is also solid but not monolithic. And emblematic of 
their situation is the fact that some groups are not 
participating in the UNASUR-mediated dialogue.
    The bottom line, however, I think for our purposes is that 
Venezuela remains both deeply polarized and also nearly equally 
divided. Supporters of the government are not just vested but 
dependent on the social programs of the government. Supporters 
of the opposition are united in their belief that the 
government is taking the country in the wrong direction, that 
the country's political institutions have been compromised, and 
that the economy is in a freefall.
    They have yet, however, to articulate convincingly an 
economic alternative that would reassure both the business 
community and the Chavista base. And I want to stress that I 
think these economic considerations are fundamental as we look 
toward the possibility or the prospects for the future. I think 
the likelihood of further clashes is great and is alarming, and 
it is particularly alarming because of how the government has 
responded to the protests to date.
    So where does this leave the United States? What are our 
interests? What are our options? We have spent decades in the 
hemisphere trying to restore and consolidate democracy. We have 
made human rights a cornerstone of our political engagement. 
The hollowing out of Venezuela's political institutions is 
cause for deep concern, as well as the reports of systematic 
human rights abuse. The government's use of force with the 
demonstrators, the refusal to disarm the colectivos, the 
increasing hostility toward the independent media should, of 
course, be a concern not just for us but for all of the 
hemisphere. It is also true that we have tried to promote the 
notion of hemispheric cooperation, and it remains to be seen if 
the UNASUR can and will foster a genuine dialogue. Certainly 
the vote recently at the OAS, which closed the session in which 
the Venezuelan legislator Maria Carina Machado was scheduled to 
speak, was I think very disappointing to many of us.
    In the meantime, we need to be aware that the Maduro 
administration and indeed----
    The Chairman. Ambassador, I am going to ask you to just 
hold there. I want you to finish your statement, but the time 
for the vote has expired. They are just holding it for Senator 
Rubio and I. So we will recess. There are three votes. This is 
the first. So it will be another 20 minutes. So we will recess 
for about 20 minutes. We will return and listen to the rest. To 
the extent that you need to make any calls, it might be a good 
time. The committee stands in recess subject to the call of the 
chair.

[Recess.]

    The Chairman. This hearing will come back to order. With 
apologies to our witnesses, unfortunately, there were more 
votes than I thought. We regret the delay, but your testimony 
is very important to us. So, Ambassador Duddy, you were 
concluding, and I want to hear your conclusions.
    Ambassador Duddy. Thank you, sir.
    I left off saying with the question where does the current 
situation leave us, what are our interests, what are our 
options. I noted that we have spent decades working on 
democracy and human rights in the region, but also on the 
concept or on mechanisms for collective action. And I noted my 
concern that the recent vote at--or my observation that the 
recent vote at the OAS was very disappointing.
    A couple of things that I would like to just revisit. We 
need to be aware that as the Maduro administration and, indeed, 
Chavez's whole Bolivarian experiment have foundered, Maduro and 
company have looked to blame the United States. And, indeed, 
anti-Americanism has long been a central tenet of the 
Bolivarian revolution. In the current circumstance, the Maduro 
government would clearly love to turn their domestic crisis 
into a bilateral one, and we should not be sucked into that 
dynamic by taking steps unilaterally at this point that would 
validate Maduro's wild accusations. After 15 years in power the 
government owns this crisis. They made it and it is theirs. 
Unilateral action would risk rallying both the Chavista base 
and much of the region.
    So I know that there are some who have already dismissed 
the notion of economic sanctions, and that, sir, is not on your 
agenda. But I did want to touch on one or two things before 
ceding to my fellow panelists.
    It is true that the United States still has a robust trade 
relationship with Caracas. 2013 bilateral trade apparently 
totaled more than $45 billion, and Venezuela remains the 
fourth-largest foreign supplier of oil to the United States. 
But the total volume of oil sales to the United States fell to 
less than 800,000 barrels a day last year and with increased 
production, reduced domestic consumption and increased supplies 
from Canada and elsewhere, Venezuela's oil imports to the 
United States are substantially less important to us than they 
used to be.
    They remain, however, immensely important to Venezuela's 
economy, and the country's very vulnerability on that score is 
one of the reasons I think why we probably do not want to use a 
doomsday tactic like economic sanctions against that sector to 
coerce the Venezuelan Government into changing its behavior. 
Economic sanctions could well collapse an already staggering, 
imploding economy and cause great suffering to the Venezuelan 
people, as well as harming many of the smaller nations of the 
Caribbean which, through the Petro Caribe program, depend on 
Venezuela's concessionary financing for oil imports. And more 
importantly, such a course would not necessarily yield an 
improved human rights situation, greater respect for the 
Venezuelan opposition's political rights, or restore the 
country's debilitated political institutions.
    So does that mean we can do nothing? No. We can 
aggressively hold individual political and military figures 
responsible for promoting violence, condoning or committing 
human rights violations or, in extremis, attempting to subvert 
democracy. We can hold them responsible. We can identify key 
organizations complicit in abuse and hold all of their members 
responsible. This would put them on notice that even 
association with certain behaviors will make them into 
international pariahs. Beyond this, I think we could and should 
continue to work with the institutions of the inter-American 
system to bring pressure to bear on the Venezuelan state.
    I think how we do both parts of what I recommend will be 
critically important. Obviously, it is my view that unilateral 
action would not be successful. At the same time, it seems to 
me that after decades of engagement on human rights, making 
clear that certain activities are beyond the pale is consistent 
with our own foreign policy and our own interests, and I think 
that we can engage others in the hemisphere to work with us to 
try and change the reality on the ground.
    Thank you, sir.
    [The prepared statement of Ambassador Duddy follows:]

                Prepared Statement of Hon. Patrick Duddy

    Chairman Menendez, Ranking Member Corker, members of the committee, 
thank you for giving me this opportunity to share my observations on 
the current situation in Venezuela. It is an honor to appear before you 
today.
    Since President Chavez's death in March of last year, circumstances 
in Venezuela have markedly deteriorated. By the end of 2013, inflation 
had spiked to over 56 percent. The Central Bank's own scarcity index 
confirmed that more than 25 percent of basic goods, including, 
importantly, many food items, were not available at any given time. The 
country with the world's largest conventional oil reserves had proven 
itself demonstrably incapable of keeping the shelves in the local 
grocery stores stocked. Hard currency was in short supply and the 
dollar was trading on the black market at 10 times the official rate. 
Criminal violence was at alarming levels with one major survey ranking 
Venezuela the second most violent country in the world. Caracas was 
arguably the world's most dangerous capital city. The economy was in 
bad shape when Maduro took over; it's in worse shape now. The murder 
rate in 2012 was startlingly high. By the end of 2013 it was even 
higher.
    In February of this year, popular discontent with the deteriorating 
conditions in the country boiled over into the most widespread 
antigovernment demonstrations the country has seen in more than a 
decade. The government of President Nicolas Maduro was clearly alarmed 
by the scope and intensity of the mass rallies. Maduro, who was sworn 
in after a disputed special election victory last April following 
Chavez's death, characterized the demonstrators as ``fascists'' allied 
with right-wing elements in exile and encouraged by the United States. 
The government's response to the demonstrators was not just 
vilification but bullyboy repression. Since February more than 40 
people have been killed, hundreds injured and many more arrested. 
Several important opposition leaders have been jailed. Another has been 
expelled from the Chavista controlled legislature and stripped of her 
parliamentary immunity. Reports of human rights abuses and even torture 
of demonstrators who were detained by security forces have circulated 
widely. Video footage of uniformed security forces and armed gangs of 
government supporters on motorcycles generally called ``motorizados'' 
or ``colectivos'' violently repressing unarmed protestors have alarmed 
concerned observers in Venezuela and around the world.
    Although events in Venezuela have largely been overshadowed by 
crises elsewhere, calls for restraint have been issued by a number of 
legislative bodies as well as by a variety of NGOs. In response to the 
rising level international concern and the determination of the 
antigovernment protestors to continue to demonstrate, the Maduro 
administration agreed to participate in talks mediated by the Union of 
South American Nations (UNASUR) and the Vatican. Like most observers I 
hope that this effort is successful in ending the violence and that it 
facilitates the development of genuine dialogue.
    It is going to be difficult. Not all of the opposition leadership 
is participating. Leopoldo Lopez is still in jail. The government 
continues to demonize the opposition and to suggest that the country 
has been the target of economic warfare. Even since the beginning of 
the UNASUR sponsored talks, the Chavista-dominated Supreme Court 
announced a ruling asserting that the right to peacefully protest 
``without prior permission'' is not absolute, notwithstanding the 
language of Article 68 of the Venezuelan Constitution, a move analysts 
have characterized as an effort to criminalize dissent.
    President Maduro has publically warned that the response of the 
Chavista base to the defeat or replacement of the Bolivarian Revolution 
would be a general uprising (``pueblo en armas'' El Universal, May 1). 
Maduro has also repeatedly cited evidence of conspiracy and accused the 
United States of interfering in Venezuela's internal affairs and 
plotting the overthrow of the government and the jettisoning of the 
Chavez-era social programs.
    As we consider the current unsustainable situation in Venezuela I 
think it is important to recognize some of the factors that militate 
against an early solution. In this context, the dismal state of the 
economy is critical. Last year, Venezuela grew by an anemic 1.3 
percent. Most analysts expect the economy to be worse this year and 
probably next. Scarcity of basic goods and the need to stand in long 
lines to buy consumables--when they can be found--has become daily 
routine for millions of Venezuelans. The latest Central Bank figures 
for inflation suggest it continues to climb and is likely already 
running at an annualized rate of 59 percent. In what will almost 
certainly prove to be another failed effort to get the unraveling 
retail sector under control and prevent hoarding, the government has 
eased some price controls and announced plans to introduce what they 
are calling a ``Secure Food Supply'' card, essentially a ration card 
intended to suppress and control consumption.
    One might assume that the problems with scarcity, inflation, and 
currency flight would compel the government to walk back from the 
economic policies that have eviscerated most of the nonpetroleum 
industries and resulted in stagnation even in the vitally important oil 
sector. While the government has, in fact, reached out to the private 
sector and tried to reassure business leaders and enlist them in 
efforts to reverse the trend lines, there has been no serious 
reconsideration of the direction in which Maduro and company are taking 
the country. Arguably this is in part because the direction was set by 
Chavez and Maduro ran as Chavez's anointed successor. Even if one 
accepts the official government figures on the April vote count, Maduro 
barely squeaked out a win despite Chavez's endorsement and the fact 
that he began the abbreviated campaign with a double digit lead in the 
polls. Maduro may believe he does not have the political capital within 
Chavismo to change course. Further to that point, Chavez and Maduro 
have vastly expanded the number of Venezuelans who depend directly or 
indirectly on the government. As a consequence, the base would be 
alarmed if substantial economic or political concessions are made to an 
opposition that Maduro himself has accused of plotting to dismantle 
Chavista-era social programs in order to restore their own economic 
fortunes.
    Recent polling suggests that the Venezuelan public is overwhelming 
unhappy with the current state of the country (79.5 percent according 
Datanalisis as cited by El Universal on May 5) and by a large majority 
(59.2 percent) blame the Maduro administration for the mess. 
Interestingly, however, according to most of the polling I've seen, the 
public's unhappiness has not yet evolved into unambiguous majority 
support for the opposition. While support for Maduro has fallen, 
Chavismo retains a strong base, even if it does not now enjoy majority 
support. Support for the opposition is also solid but not monolithlic. 
Emblematic of their situation is the fact that some groups are 
participating in the UNASUR mediated dialogue and some are not. The 
bottom line, however, is that Venezuela remains both polarized and 
nearly equally divided. Supporters of the government are not just 
vested but dependent on the social programs of the government. 
Supporters of the opposition are united in their belief that the 
government is taking the country in the wrong direction, that the 
country's political institutions have been compromised and that the 
economy is in free fall. They have yet, however, to articulate 
convincingly an economic alternative that would reassure both the 
business community and the Chavista base.
    The current situation in Venezuela is unsustainable. The opposition 
and government have settled into a sullen standoff. The economy is 
sinking and an economic collapse is not unthinkable. As circumstances 
get worse on the ground, as people become more and more frustrated with 
shortages, blackouts, and violent crime, further demonstrations 
demanding a more honest, competent, and democratic government are 
likely if the dialogue now under way fails to deliver results. The 
prospect of further clashes is alarming, as this government's response 
to legitimate protest to date does not augur well for the future.
    Where does this leave the U.S.? What are our interests? What are 
our options? We have spent decades trying to restore and consolidate 
democracy in the region. We have made human rights a cornerstone of our 
political engagement. The hollowing out of Venezuela's political 
institutions is cause for deep concern. The government's use of force 
with the demonstrators, the refusal to disarm the colectivos, the 
increasing hostility toward the independent media should concern all of 
the democratic governments of the hemisphere, not just us. And, it is 
also true that the U.S. has promoted the notion of hemispheric 
cooperation. It remains to be seen if the UNASUR can and will foster a 
genuine dialogue but it seems to me that we should all hope that effort 
is successful.
    In the meantime, we need to be aware that as the Maduro 
administration and, indeed Chavez's Bolivarian experiment have 
foundered, Maduro and company have looked to blame the U.S. Indeed, 
anti-Americanism has long been a central tenet of the Bolivarian 
Revolution. In the current circumstance, the Maduro government would 
clearly love to turn their domestic crisis into a bilateral one. We 
should not be sucked into that dynamic by taking steps unilaterally at 
this point that would validate Maduro's wild accusations. After 15 
years in power, the government owns this crisis: they made it; it's 
theirs. Unilateral action would risk rallying both the Chavista base 
and much of the region to Maduro's side.
    So, should the U.S. consider levying economic sanctions on 
Venezuela if the current situation doesn't improve? At this point, I 
don't think so. It is true, of course, the U.S. still has a robust 
trade relationship with Caracas. In 2013 bilateral trade totaled more 
than 45 billion dollars and Venezuela remains the fourth-largest 
foreign supplier of oil to the U.S. But total volume of oil sales to 
the U.S. fell to less than 800,00 barrels per day last year and with 
increased U.S., production, reduced domestic consumption and increased 
supplies from Canada and elsewhere, Venezuela's oil exports to the U.S. 
are substantially less important to us than they used to be. They 
remain, however, immensely important to Venezuela's economy and the 
country's very vulnerability is one reason to refrain from what would 
certainly be seen as a doomsday tactic to coerce change in the 
Venezuelan government's behavior. We could well collapse what is 
already an imploding economy and cause great suffering to the 
Venezuelan people as well as harming many of the small economies of the 
region which have become Venezuela's Petro Caribe clients. And such a 
course would not necessarily yield an improved human rights situation, 
greater respect for the Venezuelan opposition's political rights or 
restoration of the country's debilitated political institutions.
    So, does that mean we can do nothing? No. We can aggressively hold 
individual political and military figures responsible for promoting 
violence, condoning or committing human rights violations or, in 
extremis, attempting to subvert democracy. We can identify key 
organizations complicit in abuse and hold all of their members 
responsible; this would put them on notice that even association with 
certain behaviors will make them into international pariahs. Beyond 
this we could and should work with the institutions of the Inter 
American system to bring pressure to bear on the Venezuelan State. At 
the end of the day, I think collective action has the best chance of 
success.

    The Chairman. Thank you.
    Mr. Naim.

      STATEMENT OF MOISES NAIM, PH.D., SENIOR ASSOCIATE, 
    INTERNATIONAL ECONOMICS PROGRAM, CARNEGIE ENDOWMENT FOR 
              INTERNATIONAL PEACE, WASHINGTON, DC

    Dr. Naim. Thank you, Chairman Menendez, Senator Rubio. 
Thanks for inviting me here today.
    Let me please start with a personal note. What is going on 
in Venezuela today is very personal for me. I will be as 
dispassionate as possible in my analysis and recommendations on 
United States policy toward Venezuela, but I come to this task 
today with a heavy heart. To witness how widespread human 
suffering mounts on a daily basis is nothing less than a 
personal tragedy for me, for my family, and of course, and most 
importantly, for the Venezuelan people.
    Venezuela today has an authoritarian government that knows 
how to impersonate a democracy and tries to look democratic, 
and in many aspects, it has been successful at impersonating a 
democracy while rigging elections, stifling the media, 
repressing the opposition, and undermining checks and balances 
and concentrating as much power as possible.
    Just one example to illustrate this is that in the 14 years 
of Chavez's rule and 1 year of Maduro's government, there is 
not one instance when the legislative or the judiciary branches 
have stopped the Government or the President from doing exactly 
what he wants when he wants it as he wants it.
    More should be done to make it apparent to the rest of the 
world that Venezuela today just impersonates a democracy and is 
not a democracy.
    It is important, however, to stress that I deeply believe 
what others have said here and that the needed changes in 
Venezuela can and should only be brought about by Venezuelans. 
And I deeply believe that the United States cannot and should 
not be a main protagonist of what is going on there.
    I do have five concrete steps that I recommend, and they 
are aimed at clarifying a situation that the Venezuelan 
authorities are deliberately obscuring and also sanctioning 
those who are guilty of massive corruption and human rights 
violations.
    Unfortunately, as we speak here today, there is another 
improbable and surprising external power calling the shots in 
Venezuela and interfering with the will of the people there, 
Cuba. I hope that this committee and you, Chairman Menendez, 
Senator Rubio, will do more to try to clarify to the rest of 
the world what is the role of the Cuban Government in 
Venezuela. Havana now controls very important functions of the 
Venezuelan state, and we need to understand better the extent 
and the scope of that interference and that presence of the 
Cuban authorities in Venezuela.
    But the context for the concrete recommendations that I am 
going to offer is a severe and ill-understood human rights 
crisis. The most important clash in today's Venezuela is not 
that of the left versus the right, the rich versus the poor, 
the United States against others, or even good ideas versus bad 
ideas on how to run a country. No. The defining issue of 
current-day Venezuela is the wholesale, state-sanctioned, and 
amply documented violation of human rights of those who oppose 
the government.
    We are very lucky to have today with us here Jose Miguel 
Vivanco. The organization, Human Rights Watch, as you know, 
just released yesterday a very significant and well-documented 
report to which he is going to refer, and therefore, I do not 
need to dwell on it.
    The five recommendations I will suggest in this testimony 
are aimed at clarifying the deliberately obfuscated situation, 
as I said. Let me briefly describe each one of them.
    First is fight lies with facts. The Venezuelan Government 
routinely manipulates and hides basic information about the 
situation of the country. Critical data about the economic, 
social, and political situation is either hidden or 
manipulated. After 15 years of the Chavez model of governing, 
it is still impossible to have an objective assessment of its 
impact.
    I urge you to encourage different branches of the U.S. 
Government and use a vote that the United States has in 
organizations like the United Nations and the IDB, the World 
Bank, the IMF, and others to collect and present serious, 
systematic, and objective evaluations of the situation in 
Venezuela. I am referring to the societal impact of the Chavez 
style of governing and the approach. After 15 years, the 
Venezuelan people and others deserve to have a better 
understanding of what happens when a nation adopts the kinds of 
policies that have been in place in Venezuela for so long.
    My second proposal is that the United States should help 
uncover and publicize the level of corruption and foreign 
interference in the current Government of Venezuela. Let us 
hear the names of individuals and groups most guilty of massive 
corruption in Venezuela and widespread violation of human 
rights there. These are the narcotraffickers and the government 
accomplices and the meddling Cuban authorities and their 
government associates and those that steal from the public 
funds. And of course, we want to know more and identify the 
perpetrators of the horrible human rights abuses that have 
become so common.
    My recommendation in this sense is that the United States 
consider the possibility of having an audit of all intelligence 
and law enforcement reports that it has and that can illuminate 
the Venezuelan situation and that it releases the information 
that can be made public without damaging the intelligence 
community's need to protect sources and methods. I am sure that 
such audit will find that the U.S. Government holds secret 
information whose revelation can shed important light into the 
workings of the Venezuelan Government and its Cuban partners or 
the narcotraffickers in its midst without causing any lasting 
damage to the United States intelligence community.
    Third, United States should target the Bolivarian oligarchs 
and their partners. And in this sense, I fully support the 
initiative that you and Senator Rubio have taken on sanctioning 
individuals and their associates that are guilty of corruption 
and other misdeeds.
    The only additional thing that I will urge you is that when 
these individuals are sanctioned, it be very clear why. It is 
not enough to tell the world that a high-ranking government 
official has been denied a visa in the United States. It is 
very important that you explain and tell the world what is the 
evidence and what is the kind of information that has led the 
United States Government to do such a thing.
    Fourth, the United States must avoid the anti-imperialist 
trap. I strongly oppose and urge against any United States oil 
embargo of Venezuela. This action will be seen as a typical 
U.S. strong-arm tactic to harass poor Venezuela, a nation that, 
in quotes, is valiantly challenging this evil empire which 
longs to control its massive oil reserves. This is the 
narrative long nurtured by Chavez and his acolytes, and it is 
widely accepted and believed in Venezuela and firmly believed 
by millions of others around the world. If the United States 
imposes a unilateral total or partial oil embargo or generic 
economic sanctions, it will instantly incur the blame for all 
the ills that now befall Venezuela. United States sanctions 
will be a reward for the government of Caracas and the 
Government of Cuba.
    No sanction imposed by the United States, no generalized 
sanctions imposed by this Government can cause more damage or 
be as politically destabilizing for the Venezuelan Government 
as the sanctions that are currently being imposed by the Maduro 
administration on the Venezuelans or what the Cuban Government 
is already extracting from the nation.
    Fifth and to conclude, the United States should rally other 
Latin American leaders to condemn human rights violations in 
Venezuela and demand the freedom of political prisoners. A 
unified call from Latin American allies will be an important 
force in promoting liberty for those unjustly jailed and, in 
some cases, tortured. Those that are in jails include Leopoldo 
Lopez, obviously a prisoner of conscience, a well-known 
opposition leader of course, and Ivan Simonovis, a long-held 
political prisoner, and all of the young people who have been 
swept up by government forces. ``Free the prisoners now'' ought 
to become a rallying cry for all the freedom-loving governments 
in Latin America.
    Venezuela's brutality should be a stain on the conscience 
of other Latin American nations that have looked the other way 
for too long. The United States should make indifference and 
inaction harder to sustain, and even if the United States must 
stand alone in denouncing these abuses, it can and should do 
so. Failure to do it will be an abdication of U.S. values and 
principles.
    For the sake of Venezuela and the Venezuelan people I hold 
so dear, I hope that these and other actions can help make 
progress towards a better future possible.
    Thank you for your leadership in holding this hearing.
    [The prepared statement of Dr. Naim follows:]

                   Prepared Statement of Moises Naim

    Thank you, Chairman Menendez, Ranking Member Corker, and members of 
the committee, for inviting me to appear before you today. It is an 
honor to be here.
    I would like to begin on a personal note. I spend most of my work 
days analyzing global economic and political trends and the capacity of 
nations to successfully accomplish their societal goals. The case of 
Venezuela is different for me. I grew up there, studied there, taught 
there and in the early nineties worked with an extraordinary team of 
government officials as Minister of Trade and Industry to bring 
prosperity to a country that had a defective but vibrant democracy. For 
over 40 years in Venezuela the results of elections were largely 
unpredictable, term limits were enforced and checks and balances helped 
contain the concentration of power.
    I will be as dispassionate as possible in my analysis and 
recommendation on U.S. policy toward Venezuela. But I come to this task 
with a heavy heart. I see a country I love, and which gave so much to 
me and my family, spiral downward into economic chaos, fighting in the 
streets, a deeply divided society, massive government abuses and 
unimaginable corruption. To have this fine country acquire many of the 
characteristics common to much poorer and failed states, and to witness 
how human suffering mounts is nothing less than a personal tragedy for 
me, my family and, of course, and most importantly, for the Venezuelan 
people.
    Venezuela today is not a democracy, and it clearly is an economic 
failure. Politically, it is a post-modern autocracy. What is this? It 
is an authoritarian government that knows how to look democratic while 
rigging elections, stifling the media, repressing the opposition and 
undermining checks and balances, thus concentrating power while keeping 
the appearance of a democracy. Just one example can illustrate this: in 
the 14 years of Chavez' rule and 1 year of Maduro's government, there 
is no single instance when the legislative or the judiciary branches 
have opposed a government initiative or stopped the president from 
doing exactly what he wants, when he wants.
    The government has stealthily and effectively annulled any checks 
and balances on the power of the executive. Governmental accountability 
and transparency have been systematically eroded and, for all practical 
purposes, ceased to exist years ago. That said, I will share with you 
five practical steps I believe could be taken by the U.S. Government 
that would make a positive contribution to understanding the Venezuelan 
reality, alleviating this suffering and assisting an important nation 
in our hemisphere to move beyond this horrendous situation.
    It is important, however, to stress that I deeply believe the 
conflicts in Venezuela can only be solved by Venezuelans, and that the 
United States cannot, and should not, be a protagonist in what is going 
on there. The steps I recommend are aimed at facilitating the 
resolution of the conflicts and at clarifying a situation that the 
Venezuelan authorities are deliberately obscuring.
    Unfortunately, as we speak there is another improbable and 
surprising external power calling the shots in Venezuela and 
interfering with the will of the people there: Cuba. I hope that this 
committee will discuss Cuba's defining role in Venezuela in a future 
hearing.
    The context for the steps I recommend is a severe and ill-
understood human rights crisis. I am fully aware of the extent of 
arbitrary arrests, lack of judicial oversight, kidnappings, beatings, 
threats, restrictions of the media and the jailing of young protesters 
in horrible prisons for hardened criminals. I know you will receive a 
comprehensive and reliable report on these and other human rights 
violations from Jose Miguel Vivanco of Human Rights Watch so I will not 
enumerate them here, except to comment that my fondest hope was that 
these practices were left behind with the end of the dark days of 
brutal military dictatorships in Latin America. Sadly, they have come 
back in Venezuela. The most important clash in today's Venezuela is not 
that of the left versus right, rich versus poor, socialism versus 
capitalism, oligarchs versus the people or even good ideas versus bad 
ideas on how to run a country. No; the defining issue of current day 
Venezuela is the wholesale, state-sanctioned and amply documented 
violation of the human rights of those who oppose the government; 
violations carried out by the national guard and well trained and 
thuggish civilian militias, the infamous ``colectivos.''
    Under these circumstances, it is a challenge for the U.S. to 
intervene in a constructive way. At best, the U.S. can take positive 
steps that will help support the central drivers of a change for the 
better: the Venezuelan people.
    The five steps I recommend are:
          (1) Help Venezuelans and the world understand the real impact 
        of 15 years of the model of governing that Hugo Chavez put in 
        place;
          (2) Help uncover and publicize the level of corruption and 
        foreign influence in the present government;
          (3) Sanction those responsible for human rights abuses, as 
        well as the oligarchs connected to the Chavez elite who have 
        amassed unimaginable fortunes through corrupt deals and 
        criminal undertakings;
          (4) Prevent measures which will fuel the ``blame others'' 
        tactic of avoiding responsibility for a failed state and a 
        collapsing economy that the Venezuelan Government and its 
        apologists at home and abroad so often use; and
          (5) Encourage Latin American allies to abandon their silence 
        about government abuses in Venezuela that they would not 
        tolerate in their own country. I am not asking Venezuela's 
        neighbors or the Organization of American States (OAS) to 
        intervene in Venezuela's politics. But it is absolutely valid 
        to expect decent governments--and decent leaders--not to remain 
        indifferent as the Venezuelan Government brutally represses its 
        opponents.
    Next, I will briefly elaborate on each of these five proposals.
                       (1) fight lies with facts
    One of the most potent tools the Venezuelan Government has used is 
the manipulation and the hiding of social, economic, political, and 
institutional information.
    To confront this reality, I recommend the U.S. Government exert the 
significant influence it has in international and national institutions 
which collect data and publish reports on the state of the country's 
economy, society, political liberties, international relations, and 
national and international security. Use the vote of the U.S. 
representatives in international organizations such as the United 
Nations, the World Bank, the International Labor Organization, the 
Inter-American Development Bank and even the shamefully ineffectual OAS 
to push for quality research on the Venezuelan reality. U.S. national 
institutions such as the Congressional Research Service, private 
foundations and NGOs could also be engaged.
    The first casualty in a dictatorship is often truth. The Venezuelan 
reality is not being presented by the government as data is not 
reported, is manipulated or fabricated. There are legitimate doubts 
regarding the accuracy of the data concerning poverty and inequality, 
no objective assessment of the social programs has been carried out, 
the public ignores how much the massive foreign aid programs cost or 
the nature of the obligations the nation has acquired with countries 
like China, Russia, or Belarus. We don't even have reliable information 
about homicides, kidnappings, and crime. The government ably exploits 
for propaganda purposes its doctored figures and benefits from the 
information vacuum. Recently, for example, the Governor of the Central 
Bank announced that the data about scarcity of consumer goods and 
medicines would no longer be published.
    Shining a light on the true conditions of poverty, inequality, 
labor practices, productivity, oil production, fiscal and monetary 
balances, censorship, and, of course, human rights will help reveal the 
failure of the Venezuelan leadership to pursue an economic and social 
path that serves its people.
    I am not asking that the U.S. explicitly ``classify'' the 
Venezuelan Government as a dictatorship, but that the U.S. use its 
power to fight an abusive regime with the force of information: to get 
the real facts out for everyone to see and debate. It is imperative to 
make it harder for the regime and its apologists to lie about what is 
going on in the country and to hide the devastating impact of their 
policies.
                     (2) uncover the dirty secrets
    Rumors, individual cases, whispered revelations, confessions by 
Venezuelan Government operatives, wild accusations and sporadic reports 
all tell of the Cuban influence on Venezuelan Government policies, of 
the enormous influence of narcotraffickers or their accomplices in the 
government and of the massive corruption in the use of government 
revenues and contracting. The U.S. security and financial agencies are 
well-informed on each of these realities. My recommendation is to 
conduct an information audit of all intelligence and law enforcement 
reports that illuminate the Venezuelan situation and to release the 
information that can be made public without threatening security assets 
or damaging the intelligence community's need to protect sources and 
methods. I am sure that such audit will find that the U.S. Government 
holds secret information whose revelation can shed important light into 
the workings of the Venezuelan Government and its Cuban partners 
(or the narcotraffickers in its midst) without causing any lasting 
damage to U.S. intelligence.
    It is critically necessary to present information about the level 
of foreign influence, illegal money flows, government criminality and 
corrupt practices in Venezuela and to document how its government has 
become an important enabler of the illicit trade in drugs, people, and 
weapons. Under conditions of widespread media censorship and coercion, 
the potential for manipulating the public with false information is 
high. Again, the U.S. Government could take an important step in 
countering this misinformation by systematically revealing what it 
knows about these corrupt practices.
         (3) target the bolivarian oligarchs and their partners
    The U.S. has a number of tools to sanction individuals who enter 
U.S. territory. It is well known that the same corrupt individuals who 
steal from government coffers, take kick-backs on contracts and launder 
drug money while loudly condemning the United States, also come here to 
enjoy this country's goods and services. These new billionaires, who 
have amassed unimaginable personal fortunes by criminally tapping into 
public funds, travel in private jets to the U.S., take advantage of 
top-flight U.S. health services, send their children to U.S. colleges 
and spend their holidays shopping in New York, skiing in Aspen or 
yachting in Florida. They are also heavy users of the U.S. banks and 
invest their misbegotten gains in real estate and other investment 
instruments under U.S. jurisdiction.
    My concrete proposal is to broaden the scope and reach of the 
microtargeted sanctions against specific individuals and their families 
and business partners. Since Hugo Chavez came to power, 15 years ago, 
it has become almost impossible to thrive in the private sector in 
Venezuela without entering into business deals with the government. 
Rarely are these deals conducted at arm's length and without 
corruption. There is a long and growing list of obscenely and 
inexplicably affluent Venezuelans who pass for ``business people'' but 
are nothing more than criminals who enriched themselves on the backs of 
the Venezuelan poor that the Bolivarian Government so ardently claims 
to represent. These crooks and their associates should be targeted with 
individual sanctions. The U.S. government knows who they are.
    Denying a visa, freezing bank accounts, and limiting the access of 
the Chavez oligarchs and their families to the U.S. will obviously have 
a direct impact on these individuals. As important, it will make public 
the corrupt nature of the regime and will identify some of its wealthy 
beneficiaries. Demonstrating that the U.S. does not condone this kind 
of corrupt and illegal behavior will show these individuals, and the 
world, what it stands for and what it stands against.
                  (4) avoid the anti-imperialist trap
    There has been much discussion of using the oil trade with 
Venezuela as a tool to sanction the country. I strongly oppose this 
proposal for two reasons. First, as others have said, cutting off the 
most important source of revenue for the Venezuelan economy hurts all 
Venezuelans, most of whom have no influence in government decisions and 
certainly no ability to tap into public revenues for private gain.
    Second, and in this politically charged environment a key factor, a 
U.S. oil embargo on Venezuela or any kind of nationwide economic 
sanction would instantly be painted as Yankee imperialism, intervention 
and a typical U.S. strong-arm tactic to harass poor Venezuela--a nation 
that is valiantly challenging this evil empire which longs to control 
its massive oil reserves. This is the narrative that Chavez and his 
acolytes in and outside Venezuela have nurtured for a long time. The 
tenets of this narrative are firmly believed by Latin Americans and 
millions of others around the world--it is also widely accepted in 
Venezuela. If the U.S. imposes a total or partial oil embargo or 
otherwise uses heavy-handed, generalized economic sanctions, it would 
be committing a clumsy and self-inflicted wound. The U.S. would 
instantly become the cause of all Venezuelan ills, from the lack of 
basic goods at the grocery store to the deaths of children in hospitals 
without medicines.
    No sanction imposed by the U.S. can cause more damage or be as 
politically destabilizing for the Venezuelan government as the 
sanctions that the Maduro administration and its Cuban handlers are 
currently imposing on the Venezuelan people.
    Oil sanctions by the U.S. Government would be a reward for the 
Caracas Government and its Cuban partners, since they are desperately 
looking for someone to blame for the economic crisis they have created.
    So it is my strong recommendation NOT to do something that has been 
discussed by some Members of Congress. Don't fall into the Anti-
Imperialist trap.
 (5) rally latin american government voices to condemn of human rights 
 violations in venezuela and demand the freedom of political prisoners
    Finally, I would like to make a recommendation for action in the 
area of human rights. Even though the U.S. has lost influence in Latin 
America, it still does have supporters and allies in the region. I 
recommend rallying these allies to get political prisoners such as 
Leopoldo Lopez, the opposition leader, Ivan Simonovis, the long-held 
political prisoner, and all of the young people who have been swept up 
by the government forces out of prison. A unified call for living up to 
the most basic of human rights, the right to due process under the law, 
from friends of the U.S. across the continent would be an important 
force in gaining liberty for those unjustly jailed and in some cases 
tortured.
    U.S. leadership in mobilizing a group of countries to denounce the 
old but not forgotten tactic of governments to jail and harass their 
critics would be a loud voice in saying enough is enough. Release the 
prisoners!
    Venezuela's brutality should be a stain on the conscience of other 
Latin American nations that have looked the other way for too long. The 
U.S. should make indifference and bystanding harder to sustain.
    Additionally, the U.S. should engage and encourage in the very 
innovative process spontaneously taking place in Latin America where 
opposition forces are taking a public stand against their governments' 
complacency toward the Venezuelan situation. In Brazil, Argentina, 
Chile, and Peru, elected legislators have openly challenged their own 
governments for their passive stand toward Venezuela. This is a process 
that should be welcomed and encouraged by the U.S. It is very important 
to have elected officials who are members of nonruling parties 
throughout Latin America shaming their own governments out of their 
silence regarding the abuses taking place in Venezuela.
    To conclude, I would like to reiterate that these recommendations 
are based on the idea that real information and its broad dissemination 
are powerful tools in confronting deception and corruption. They 
embrace the idea that those culpable of wrongdoing should bear the 
brunt of punishment. They take into account the special role of the 
U.S. in the region and in the world, and they strive to bring nations 
together to defend modern practices of real democracies in protecting 
and defending all citizens. For the sake of Venezuela, and the 
Venezuelan people I hold dear, I hope these and other actions can help 
make progress toward a better future.

    The Chairman. Thank you very much.
    Let me, before I turn to Mr. Vivanco, say there is nothing 
in the legislation that Senator Rubio and I are considering 
that has anything to do with oil embargos, and that is very 
clear. So let us eliminate that right off the bat. I know that 
Senator Durbin mentioned it as an item, but there is nothing in 
our legislation that speaks about that, so that we do not begin 
to obfuscate the differences.
    Mr. Vivanco.

STATEMENT OF JOSE MIGUEL VIVANCO, EXECUTIVE DIRECTOR, AMERICAS 
          DIVISION, HUMAN RIGHTS WATCH, WASHINGTON, DC

    Mr. Vivanco. Thank you, Mr. Chairman, Senator Rubio.
    I will respectfully request that Human Rights Watch's full 
report titled ``Punished for Protesting'' be included in the 
written record of this hearing.
    The Chairman. Without objection.
    Mr. Vivanco. In late March, Human Rights Watch went to 
Venezuela to investigate reports of serious human rights 
violations committed in the context of massive public protests, 
which began on February 12. Our experts traveled to Caracas and 
three states, conducting more than 90 interviews with victims, 
the doctors who attended them, eyewitnesses, journalists, and 
human rights defenders. We also gathered extensive evidence, 
including photographs, videos, medical reports, and judicial 
documents.
    The scale of rights violations we found and the range of 
security forces and justice officials committing them shows, 
without question, that these are not isolated incidents or the 
excesses of a few rogue actors. Rather, they are part of an 
alarming pattern of abuse that is the worst we have seen in 
Venezuela in years.
    The most serious abuses we found are: first, the routine 
use of unlawful force against unarmed protestors and even 
bystanders, including severe beatings, firing live ammunition, 
rubber bullets, and tear gas indiscriminately into crowds, 
firing rubber bullets deliberately at pointblank range at 
unarmed individuals already in custody. The fact that these 
abuses were carried out repeatedly by multiple security forces, 
including the national guard, national police, and the state 
police, in multiple locations across the country and over the 
6-week period we examined led us to conclude that these human 
rights violations were part of a systematic practice by 
Venezuelan security forces.
    Second, we found a range of serious abuses committed 
against detainees who were often held incommunicado on military 
bases for 48 hours or more before being presented before a 
judge. This included beatings with helmets and firearms, 
electric shock and burns, being forced to squat or kneel 
without moving for hours at a time, being handcuffed to other 
detainees sometimes in human chains of over 30 people for hours 
at a time, and extended periods of extreme heat or cold. In at 
least 10 cases, we concluded the abuses we have documented 
constituted torture.
    Third, we found that rather than fulfill its role as a 
safeguard against abuse of power, justice officials were party 
to serious due process violations. Virtually every victim we 
interviewed was denied access to a lawyer until minutes before 
their hearings, which were often scheduled in the middle of the 
night. Prosecutors and judges routinely turned a blind eye to 
evidence suggesting the detainees had been physically abused or 
that evidence against them had been planted by security forces.
    Fourth, we found that security forces deliberately targeted 
journalists and others photographing and filming the repression 
against protestors.
    And fifth, we found that security forces tolerated and 
sometimes collaborated directly with armed pro-government gangs 
that attacked protestors with total impunity.
    Now, President Maduro and Attorney General Ortega have 
acknowledged that security forces have committed human rights 
violations, and they have pledged to investigate these cases. 
However, there are good reasons to doubt their credibility. 
Why?
    First, because justice officials are themselves directly 
implicated in serious due process violations. So any proper 
investigation will require these institutions to investigate 
themselves, a recipe for impunity.
    Second, because the Venezuelan judiciary has ceased to 
function as an independent branch of government.
    And third, because the President and Attorney General 
Ortega have repeatedly made public statements downplaying the 
abuses while, at the same time, celebrating the security forces 
that have carried out systematic violations.
    Given this reality, the international community should 
demand that people who have been unlawfully detained for 
exercising their fundamental rights should immediately and 
unconditionally be released; that President Maduro should cease 
all rhetoric that incites violence; that all human rights 
violations should be promptly and impartially investigated and 
those responsible brought to justice; and that Venezuela take 
steps to restore the independence of the judiciary beginning 
with the supreme court.
    Thank you very much. I look forward to your questions, Mr. 
Chairman.
    [The prepared statement of Mr. Vivanco follows:]

               Prepared Statement of Jose Miguel Vivanco

    Mr. Chairman, committee members, thank you for the invitation to 
appear before the Senate Committee on Foreign Relations on behalf of 
Human Rights Watch (HRW) to discuss the alarming human rights situation 
in Venezuela today. On May 5, Human Rights Watch released a report 
titled ``Punished for Protesting: Rights Violations in Venezuela's 
Streets, Detention Centers, and Justice System.'' Based on extensive 
research conducted on the ground in Caracas and three states, the 
report documents violations committed by Venezuelan security forces and 
justice officials in the context of protests since February 12, 2014. 
The findings of that report--the full version of which I have formally 
submitted to the committee, and which I would respectfully request be 
included in the record of this hearing--are the basis for my testimony 
today.
           findings of hrw report ``punished for protesting''
    On February 12, 2014, thousands of people across Venezuela 
participated in marches and public demonstrations to protest the 
policies of the government of President Nicolas Maduro. In Caracas and 
several other cities, violent clashes broke out between government 
security forces and protesters. Three people were killed, dozens 
seriously injured, and hundreds arrested. Since then, the protests have 
continued and the number of casualties and arrests has grown.
    In the days and weeks after February 12, Human Rights Watch 
received reports of serious human rights violations, including abuses 
committed during government operations aimed at containing protest 
activity, as well as in the treatment of people detained at or near 
protests.
    To investigate these allegations of abuse, Human Rights Watch 
carried out a fact-finding investigation in Venezuela in March. We 
visited Caracas and three states--Carabobo, Lara, and Miranda--and 
conducted scores of interviews with abuse victims, their families, 
eyewitnesses, medical professionals, journalists, and human rights 
defenders. We also gathered extensive material evidence, including 
photographs, video footage, medical reports, judicial rulings, and case 
files. In addition, we collected and reviewed government reports and 
official statements regarding protest activity and the response of 
security forces.
    What we found during our in-country investigation and subsequent 
research is a pattern of serious abuse. In 45 cases, we found strong 
evidence of serious human rights violations committed by Venezuelan 
security forces, which included violations of the right to life; the 
prohibition on torture and cruel, inhuman and degrading treatment; the 
rights to bodily integrity, security, and liberty; and due process 
rights. These violations were compounded by members of the Attorney 
General's Office and the judiciary who knew of, participated in, or 
otherwise tolerated abuses against protesters and detainees, including 
serious violations of their due process rights.
    The accounts of the victims in these 45 cases--together with 
corroborating evidence assembled from a diverse range of sources--
provided credible evidence that more than 150 people were victims of 
serious abuses in related incidents. (For more on how we conducted our 
research and documented cases, see the ``Methodology'' section in this 
report.)
    In most of the cases we documented, security forces employed 
unlawful force, including shooting and severely beating unarmed 
individuals. Nearly all of the victims were also arrested and, while in 
detention, subjected to physical and psychological abuse. In at least 
10 cases, the abuses clearly constituted torture.
    In all three states, as well as in Caracas, security forces allowed 
armed pro-government gangs to assault unarmed civilians, and in some 
cases openly collaborated with them in the attacks, our research found.
    The Venezuelan Government has characterized the protests taking 
place throughout the country as violent. There is no doubt that some 
protesters have used violence, including throwing rocks and Molotov 
cocktails at security forces. More than 200 security force members and 
government officials have been injured in the context of the protests, 
and at least nine have died, according to the government. All crimes--
including those committed against security forces, protesters, and 
bystanders--require rigorous investigation, and those responsible 
should be brought to justice. Moreover, security forces have a 
responsibility to detain people caught in the act of committing crimes.
    However, in the 45 cases of human rights violations we documented, 
the evidence indicated that the victims of unlawful force and other 
abuses were not engaging in acts of violence or other criminal activity 
at the time they were targeted by Venezuelan security forces. On the 
contrary, eyewitness testimony, video footage, photographs and other 
evidence suggest victims were unarmed and nonviolent. Indeed, some of 
the worst abuses we documented were committed against people who were 
not even participating in demonstrations, or were already in detention 
and fully under the control of security forces.
    The nature and timing of many of these abuses--as well as the 
frequent use of political epithets by the perpetrators--suggests that 
their aim was not to enforce the law or disperse protests, but rather 
to punish people for their political views or perceived views.
    In many instances, the aim of the abuse appears to have been to 
prevent individuals from documenting the tactics being employed by 
security forces, or to punish those attempting to do so. In 13 of the 
cases we investigated, security forces targeted individuals who had 
been taking photographs or filming security force confrontations with 
protesters. Roughly half of these individuals were professional 
journalists, while the other half were protesters or bystanders using 
cell phones to document use of force by security forces.
    In addition to the unlawful use of force and arbitrary arrests, 
nearly all of the 45 cases involved violations of due process 
guarantees. These included holding detainees incommunicado, denying 
them access to lawyers until minutes before they were presented to 
judges, and in several cases planting evidence on them before charging 
them with crimes. Judges often confirmed charges against detainees 
based on dubious evidence presented by prosecutors, without subjecting 
the evidence to rigorous review or inquiring into how suspects 
presented before them had sustained visible injuries.
    Prosecutors and judges routinely turned a blind eye to evidence 
suggesting that detainees had been subject to abuses while in 
detention, such as ignoring obvious signs of physical abuse, or 
interrogating detainees in military installations, where it was clear 
they did not have access to lawyers.
    High-ranking Venezuelan Government officials, including President 
Nicolas Maduro and the attorney general, have acknowledged that 
government security forces have committed human rights violations in 
responding to demonstrations since February 12. They have pledged that 
those responsible for abuses will be investigated and prosecuted, and 
the Attorney General's Office recently reported that it is conducting 
145 investigations into alleged human rights violations and that 17 
security officials had been detained for their alleged involvement in 
these cases. At the same time, President Maduro, the attorney general, 
and numerous others government officials have also repeatedly claimed 
that human rights abuses are isolated incidents, rather than evidence 
of a broader pattern of abuse.
    While it was not possible for Human Rights Watch's investigation to 
determine the full scope of human rights violations committed in 
Venezuela in response to protests since February 12, our research leads 
us to conclude that the abuses were not isolated cases or excesses by 
rogue security force members, but rather part of a broader pattern, 
which senior officers and officials must or should have known about, 
and seem at a minimum to have tolerated. The fact that the abuses by 
members of security forces were carried out repeatedly, by multiple 
security forces, in multiple locations across three states and the 
capital (including in controlled environments such as military 
installations and other state institutions), and over the 6-week period 
covered in this report, supports the conclusion that the abuses were 
part of a systematic practice by the Venezuelan authorities.
    Prosecutors and justice officials who should have operated 
independently from security forces--and whose role should have led them 
to identify and intervene to stop violations against detainees--instead 
turned a blind eye, and were in some cases actively complicit in the 
human rights violations being committed by security forces. Prosecutors 
contributed to various due process violations, such as participating in 
interrogations without a defense lawyer present, which is contrary to 
Venezuelan law. Both prosecutors and judges failed to scrutinize 
evidence that had been planted or fabricated by security forces, and 
held hearings to determine charges for multiple detainees who did not 
have prior adequate access to legal counsel.
    The scope of the due process violations that occurred in multiple 
jurisdictions across several states--and that persisted, at the very 
least, over the 6-week period examined by this report--highlights the 
failure of the judicial body to fulfill its role as a safeguard against 
abuse of state power. It also reinforces the conclusion that 
Venezuela's judiciary has been transformed from an independent branch 
of government to a highly politicized body, as has been previously 
documented in multiple reports by Human Rights Watch.
                         violence by protesters
    Human Rights Watch reviewed government statements alleging that 
protesters engaged in acts of violence and other crimes in various 
parts of the country since February 12. We also collected and analyzed 
media reports, video footage, and photographs posted online purporting 
to shows acts of violence committed by protesters during 
demonstrations. As noted below, according to the Venezuelan Government 
there have been 41 fatalities connected to the protests, most of which 
the government attributes to protesters.
    The most common crime attributed to protesters was the obstruction 
of roadways and other transit, either by fixed barricades or the 
presence of demonstrators who did not seek official permits for their 
activities. In addition, on multiple occasions, people participating in 
protests have attacked security forces with rocks, Molotov cocktails, 
and slingshots. In a handful of incidents, there were reports of 
protesters shooting homemade mortars.
    For example, photographs taken by a Reuters photographer on April 
6, 2014, show young men who appear to be protesters firing what looks 
like an improvised mortar device. The photograph's caption reads: 
``Anti-government protesters fire a rudimentary mortar at police during 
riots in Caracas April 6, 2014.'' Other photographs taken by the same 
photographer show different masked men holding and shooting what appear 
to be homemade mortar tubes on February 26 and 27, 2014. According to 
the photographs' captions, the men holding the mortar tubes were 
antigovernment protesters participating in protests in San Cristobal, 
Tachira state.
    Human Rights Watch also found multiple photographs and videos that 
reportedly show antigovernment protesters throwing Molotov cocktails at 
security forces. Some images show the Molotov cocktails setting 
security force members or their vehicles on fire. For example, NTN24 
posted online a cell phone video showing several people throwing 
Molotov cocktails at an armored government vehicle, setting it on fire. 
NTN24 reported that the vehicle had been shooting water and teargas as 
it aimed at demolishing street barricades in Caracas.
    Another video posted on YouTube shows around a dozen security force 
members retreating on a street as rocks are being thrown at them. A 
flaming object lands at their feet and explodes, temporarily setting at 
least a few of them on fire. The video was uploaded on YouTube on 
February 21 by a user who said it was taken on February 18, 2014, in 
Tachira state, and described the explosive as a Molotov cocktail. The 
video does not show who threw the rocks or explosive, but several news 
reports that covered the video alleged that they had been thrown by 
protesters.
    According to the Attorney General's Office, there have been 41 
fatalities in the context of the protests since February 12. Those 41 
deaths were classified as follows: 27 caused by firearms; 6 caused by 
motorcycle or car crashes attributed to the presence of barricades; 5 
caused by ``other circumstances'' (which are not defined); 2 people 
killed by being run over by vehicles; and 1 person who died of stab 
wounds. Publicly available information indicates that of these 41 
reported cases, 9 were members of the security forces or government 
officials, at least 10 were civilians who participated in or supported 
the protests, and roughly 4 were civilian government supporters.
    President Maduro has blamed the opposition for most of the protest-
related deaths. However, to date, the government has not made public 
evidence to support this claim. In fact, based on official reports and 
credible media accounts, there are strong reasons to believe that 
security forces and armed pro-government gangs have been responsible 
for some of the killings. Indeed, several security force members have 
been arrested for their alleged role in some of these cases.
    In those cases where public officials have presented evidence 
purporting to demonstrate protesters' responsibility for killings, that 
evidence has been far from conclusive. For example, in one case, a 
governor affiliated with President Maduro's political party presented 
video footage showing two masked men on a rooftop who appear to be 
shooting a rifle or rifles in the direction of the street. The governor 
claimed the gunmen were antigovernment protesters and suggested they 
were responsible for the shooting death of a state worker, Juan Orlando 
Labrador Castiblanco. In a separate speech, President Maduro said 
Labrador had been killed by ``right-wing snipers.'' The video shown by 
the governor does not indicate whether the men on the roof were 
antigovernment protesters, nor is it possible to determine based on the 
footage whether the shots apparently fired from the rooftop hit anyone 
(Labrador is not shown in the video). No evidence was supplied 
regarding the trajectory of the bullet or bullets that killed Labrador. 
Several press reports confirming Labrador's death during or around the 
time of a protest (which was taking place at the time on the Avenida 
Cardenal Quintero) included accounts--from neighbors and the mayor--
claiming that armed pro-government gangs, allegedly acting in tandem 
with government security forces, had shot him dead. In the face of 
contradictory claims, the importance of a thorough, impartial, credible 
investigation that includes all available forensic and crime scene 
evidence and witness accounts is critical.
                         unlawful use of force
    Security forces routinely used unlawful force against unarmed 
protesters and other people in the vicinity of demonstrations. The 
perpetrators included members of the National Guard, the National 
Police, the Guard of the People, and various state police agencies. The 
most common abuses included:

  <bullet> Severely beating unarmed individuals;
  <bullet> Firing live ammunition, rubber bullets, and teargas 
        canisters indiscriminately into crowds; and
  <bullet> Firing rubber bullets deliberately, at point-blank range, at 
        unarmed individuals, including, in some cases, individuals 
        already in custody.

    When the restaurant where he worked in a shopping mall in El 
Carrizal closed on March 5 due to nearby protests, Moises Guanchez, 19, 
left to go home. But he found himself trapped in an enclosed parking 
lot behind the mall with around 40 other people, as members of the 
National Guard fired teargas canisters and rubber bullets in their 
direction. When Guanchez attempted to flee the lot, a guardsman blocked 
his way and shot toward his head with rubber bullets. The shot hit 
Guanchez's arm, which he had raised to protect his face, and he was 
knocked to the ground. Though Guanchez offered no resistance, two 
guardsmen picked him up and took turns punching him, until a third 
approached and shot him point blank with rubber bullets in his groin. 
He would need three blood transfusions and operations on his arm, leg, 
and one of his testicles.

    Willie David Arma, 29, was detained on March 7 in the street 
outside his home in Barquisimeto, a few blocks away from an 
antigovernment protest. He was shot repeatedly with rubber bullets, 
some at point-blank range, then subjected to a prolonged beating with 
rifle butts and helmets by three national guardsmen who asked him: 
``Who is your president?''

    Under international law, government security forces may use force 
in crowd control operations as a last resort and in proportion to the 
seriousness of the offense they are seeking to prevent. They may use 
lethal force only as self-defense or defense of others against the 
imminent threat of death or serious bodily injury. They may use teargas 
only when necessary and in a proportionate and nondiscriminatory 
manner--and should not use it in a confined area or against anyone in 
detention or already under the control of law enforcement.
    Human Rights Watch found that Venezuelan security forces repeatedly 
resorted to force--including lethal force--in situations in which it 
was wholly unjustified. In a majority of the cases documented by Human 
Rights Watch, the use of force occurred in the context of protests that 
were peaceful, according to victims, eyewitnesses, lawyers, and 
journalists, who in many instances shared video footage and photographs 
corroborating their accounts.
    In several of the cases we investigated, small groups of 
individuals committed acts of violence at the protests, such as 
throwing stones or bottles, or burning vehicles. In some instances, the 
evidence suggests these acts were committed without provocation; in 
others, they appear to have been committed in response to aggression by 
security forces. Regardless, eyewitnesses and journalists who observed 
the protests consistently told Human Rights Watch that the people who 
committed acts of violence at protests were a very small minority--
usually less than a dozen people out of scores or hundreds of people 
present.
    Yet despite the fact that acts of violence were isolated to small 
groups, security forces responded by indiscriminately attacking entire 
demonstrations, and in some cases, bystanders. In at least six 
incidents we documented, the indiscriminate use of force endangered 
people in nearby hospitals, universities, apartment buildings, and 
shopping malls. These actions by security forces threatened the well-
being of hundreds of bystanders--children among them.

    Rodrigo Perez, 21, felt several rubber pellets strike his back and 
head as he was running away from state police officials who had opened 
fire with rubber bullets at demonstrators. The demonstrators had been 
partially blocking traffic in Puerto La Cruz on March 7 to protest the 
government. Perez--who was hit as he ran into a nearby mall's parking 
lot--hid in a store after being wounded, and saw several members of 
government security forces enter the mall's food court and fire at 
unarmed, fleeing civilians, injuring two others.
                           arbitrary arrests
    In the scores of cases of detentions documented by Human Rights 
Watch, the majority of the detainees were participating in protests at 
the time of their arrests. However, the government routinely failed to 
present credible evidence that these protesters were committing crimes 
at the time they were arrested, which is a requirement under Venezuelan 
law when detaining someone without an arrest warrant. On the contrary, 
victim and eyewitness accounts, videos, photographs, and other evidence 
indicate that victims were participating peacefully in demonstrations 
and not engaging in any criminal activity.
    Some of the people detained, moreover, were simply in the vicinity 
of protests but not participating in them. This group of detainees 
included people who were passing through areas where protests were 
taking place, or were in public places nearby. Others were detained on 
private property such as apartment buildings. In every case in which 
individuals were detained on private property, security forces entered 
buildings without search orders, often forcing their way in by breaking 
down doors.

    Luis Augusto Matheus Chirinos, 21, was detained on February 21 in 
Valencia by approximately 10 members of the National Guard at the 
entrance of a housing complex (urbanizacion), where he was standing, 
waiting for a friend he had gone to pick up. An antigovernment 
demonstration was taking place nearby. He was taken to a military 
complex of the Guard of the People, where he was beaten, threatened, 
and told to repeat that Nicolas Maduro was the President of Venezuela. 
Matheus was held incommunicado for 2 days and subsequently charged with 
several crimes, based on what our research strongly suggests was 
planted evidence and a police report that says he was arrested two 
blocks away from where he was actually detained.

    Pedro Gonzalez, 24, was visiting a friend on March 3 who lives in 
an apartment building near a public square in Caracas where a 
demonstration was taking place. When teargas began wafting into the 
apartment, Gonzalez went to the building's enclosed courtyard to get 
some air. Minutes later, police burst into the building's entrance, 
pursuing a protester. They grabbed Gonzalez, threw him to the ground, 
and dragged him out of the building, arresting him for no apparent 
reason.

    Jose Romero, 17, was stopped on March 18 by national guardsmen when 
he was coming out of a metro station in downtown Caracas. A guardsman 
asked to see his ID and, when Romero presented it, slapped him across 
the face. Romero was detained without explanation and taken to a 
nondescript building, where he was held incommunicado, threatened with 
death, beaten, and burned.
      targeting of journalists and others documenting the violence
    In 13 of the cases of physical abuse documented by Human Rights 
Watch, security forces targeted individuals who had been taking 
photographs or filming protests. All but two were then arbitrarily 
arrested. Roughly half of these individuals were professional 
journalists, while the other half were protesters or bystanders using 
cell phones to document use of force by security forces.
    In these cases, when assaulting or arresting the victims, security 
force members reprimanded them for taking pictures or filming. In 
several instances, security force members told victims they were 
getting what they deserved for trying to undermine the reputation of 
security forces, or told them they did not want the images circulating 
online.

    Dayana Mendez Andrade, 24, a journalist, was covering a 
demonstration in Barquisimeto on March 20 wearing a vest with the word 
``Press'' written in large letters across the front, when national 
guardsmen began firing teargas and rubber bullets at protesters. Mendez 
fled but was cornered together with a photographer--Luis Rodriguez 
Malpica, 26--by several guardsmen. When she and Rodriguez put up their 
hands and yelled that they were journalists, a guardsman responded, 
``You're taking photos of me! You're the ones that send the photos 
saying `SOS Venezuela.' You cause problems for the National Guard.'' 
Then, from a distance of a few meters, the guardsman fired at them with 
rubber bullets, striking Mendez in her left hip and leg.

    Angel de Jesus Gonzalez, 19, was taking photographs of a burnt out 
car after a march in Caracas on February 12 when he was approached by 
four armed men in plainclothes. One of the men told him to hand over 
his phone, which he did. Then the men (who Gonzalez later learned were 
government security agents) began to beat him for no apparent reason, 
and detained him.

    In these cases--as well as others involving the detention of 
protesters and bystanders--national guardsmen and police routinely 
confiscated the cell phones and cameras of the detainees. In the rare 
instances when detainees had these devices returned to them, they 
routinely found that their photographs or video had been deleted.
               collusion with armed pro-government gangs
    Security forces repeatedly allowed armed pro-government gangs to 
attack protesters, journalists, students, or people they believed to be 
opponents of the government with security forces just meters away. In 
some cases, the security forces openly collaborated with the pro-
government attackers.
    (Armed pro-government gangs that carry out these attacks are often 
referred as ``colectivos,'' a term also used in Venezuela to refer to a 
wide range of social organizations that support and, in some cases, 
help to implement the government's policies. The vast majority of these 
groups have not engaged in violent behavior. For this reason, this 
report uses the term ``armed pro-government gangs'' to refer to groups 
that carry out violent attacks that appear to be motivated by loyalty 
to the government. Where the term ``colectivo'' has been used, it is 
with the aim of accurately reflecting the way it was used by a source.)
    The response of government security forces to armed pro-government 
gangs ranged from acquiescence and omission to direct collaboration. In 
some instances, security forces were present when armed gangs attacked 
protesters, but did nothing to disarm the gangs or protect their 
victims. Rather, security forces stood by idly, or left an area shortly 
before pro-government gangs attacked.
    In other incidents, we found compelling evidence of uniformed 
security forces and pro-government gangs attacking protesters side by 
side.

    National guardsmen and national police opened fire with teargas and 
rubber bullets on students who were demonstrating in and around the 
campus of the University Centro Occidental Lisandro Alvarado in 
Barquisimeto on March 11. Wladimir Diaz, 20, who participated in the 
protest, said government security forces operated side by side with 
more than 50 civilians, many of whom were armed with pistols and fired 
live ammunition at the students. Diaz was shot in the abdomen when a 
mixed group of government security forces and armed, masked civilians 
opened fire on the university building where he was taking shelter.

    In some cases documented by Human Rights Watch, armed pro-
government gangs detained people at or near protests, and then handed 
them over to security forces. Those security forces, in turn, falsely 
claimed to have caught the abducted individuals in the act of 
committing a crime, and prosecutors subsequently charged them before a 
judge.

    Jose Alfredo Martin Ostermann, 41, and Carlos Spinetti, 39, were 
detained on March 12 by armed civilians as they walked near a pro-
government rally in Caracas. The victims were taken in plain sight of 
three national guardsmen, who did nothing to intervene. The armed men 
beat Ostermann and Spinetti, shouted insults at them that were 
political in tone (for example, accusing them of being ``traitors to 
the fatherland''), threatened to kill them, and photographed Spinetti 
holding a planted weapon, before handing them over to police. Rather 
than questioning the armed civilians, police detained the two victims.

    Sandro Rivas, 30, left a demonstration and was getting a ride home 
on the back of a motorcycle when he and the driver were stopped by four 
armed men driving a pickup truck. The plainclothes men forced Rivas and 
the driver into the back of the pickup, where they punched and kicked 
them repeatedly and threatened to kill them. Then they drove them to a 
National Guard checkpoint, where they told officers the detainees had 
been ``guarimbeando''--slang the government often uses to refer to 
protesters who block roads. The guardsmen arrested the two men without 
once questioning the armed men.

    All of the people we interviewed who were abducted, or taken 
captive, or attacked by pro-government gangs told us they were beaten 
severely, or subjected to threats or insults that were political in 
nature.
    Despite credible evidence of crimes carried out by these armed pro-
government gangs, high-ranking officials called directly on groups to 
confront protesters through speeches, interviews, and tweets. President 
Maduro himself has on multiple occasions called on civilian groups 
loyal to the government to ``extinguish the flame'' of what he 
characterized as ``fascist'' protesters. For example, in a speech on 
March 5 transmitted live as a mandatory broadcast (cadena nacional), 
Maduro said: ``. . . These groups of guarimberos, fascists and violent 
[people], and today now other sectors of the country's population as 
well have gone out on the streets, I call on the UBCh, on the communal 
councils, on communities, on colectivos: flame that is lit, flame that 
is extinguished.''
    Similarly, on February 16, the governor of the state of Carabobo, 
Francisco Ameliach, issued a tweet calling on the Unidades de Batalla 
Bolivar-Chavez (UBCh)--a civilian group formed, according to the 
government, as a ``tool of the people to defend its conquests, to 
continue fighting for the expansion of the Venezuelan Revolution''--to 
launch a rapid counterattack against protesters. Ameliach said the 
order would come from the president of the National Assembly, Diosdado 
Cabello, a close ally of President Maduro. The February 16 tweet, which 
was later deleted from his feed, said: UBCH get ready for the swift 
counterattack. Diosdado will give the order. 
#GringosAndFascistsShowRespect
                     abuses in detention facilities
    In most of the cases documented by Human Rights Watch, detainees 
were held incommunicado for up to 48 hours, before being presented to a 
judge. In many instances they were held in military installations.
    During this period, security forces subjected detainees to severe 
physical abuse, including:

  <bullet> Beatings with fists, helmets, and firearms;
  <bullet> Electric shocks or burns;
  <bullet> Being forced to squat or kneel, without moving, for hours at 
        a time;
  <bullet> Being handcuffed to other detainees, sometimes in pairs and 
        others in human chains of dozens of people, for hours at a 
        time; and
  <bullet> Extended periods of extreme cold or heat.

    Maurizio Ottaviani Rodriguez, 20, was detained on February 28 when 
he was leaving a demonstration in Plaza Altamira in Caracas. Despite 
having offered no resistance during the arrest, Ottaviani told Human 
Rights Watch, the guardsmen beat, kicked, and stepped on him. He was 
forced to board a school bus with more than 40 other detainees, 
including several women and three minors. Each detainee was handcuffed 
to the person on his or her side, and they were held on the bus for 2 
hours, during which time they were not allowed to open the windows to 
alleviate the heat inside, which was stifling. The guardsmen hit people 
inside the bus with batons, threatened to throw a teargas canister 
inside the bus, and told detainees they would be sent to a violent 
prison. Detainees were then taken to the military base Fuerte Tiuna, 
where they were held for almost a day, and were not allowed to speak 
with their families or lawyers. As soon as they arrived, they were all 
taken to a chapel and separated into three groups: men, women, and the 
three minors. During this time, the men were handcuffed to each other 
in a human chain.

    Detainees also described being subjected to intrusive physical 
exams by guardsmen, ostensibly to search for weapons or drugs, which 
involved removing their clothes and being forced to perform squats 
while naked. At least one of the detainees subjected to these degrading 
exams was a boy.
    Detainees with serious injuries--such as wounds from rubber bullets 
and broken bones from severe beatings--were denied or delayed access to 
medical attention, exacerbating their suffering, despite their repeated 
requests to see a doctor.
    In the few instances in which detainees with serious injuries were 
taken to a hospital or clinic, security officials interfered with their 
medical care. Security officials refused to leave restricted medical 
areas when asked; denied doctors the right to speak privately with 
patients or carry out medical procedures without national guardsmen or 
police present; and in some instances tried to take detainees out of 
facilities before they had received adequate treatment or their 
condition had stabilized, against doctors' advice.

    On February 19, a national guardsman fired at the face of Gengis 
Pinto, 36, from point blank range with rubber bullets, despite the fact 
that he had already been detained and was offering no resistance. Pinto 
had been participating in an antigovernment rally in San Antonio de los 
Altos, where hundreds of protesters had blocked off part of a highway. 
Pinto raised his arm to block the shot, which struck his hand, badly 
mangling several of his fingers, and embedded several pellets in his 
forearm. Despite serious pain, loss of blood, and several requests, 
guardsmen refused to take Pinto to a doctor. Instead, they beat him, 
threatened to kill him, and took him to a military base for 
questioning. Approximately 6 hours after being shot, guardsmen took 
Pinto to an emergency clinic, where they refused to let the doctor 
examine him privately. Though the doctor told guardsmen that Pinto 
needed immediate specialty care that the clinic could not provide, 
guardsmen ignored his advice and took Pinto back to the military base. 
There, he was handcuffed to another detainee and made to sit in the sun 
for roughly 10 more hours before being taken to a private clinic where 
he was operated on.

    In several cases, national guardsmen and police also subjected 
detainees to severe psychological abuse, threatening them with death 
and rape, and telling them they would be transferred to the country's 
extremely violent prisons, even though they had yet to be charged with 
a crime.
    In other cases, guardsmen and police warned victims not to denounce 
the abuses they had suffered, suggesting false stories that detainees 
should use to explain the physical injuries they had suffered at the 
hands of security forces.
    In at least 10 cases, Human Rights Watch believes that the 
combination of abusive tactics employed by security forces constitutes 
torture.

    Clipso Alberto Martinez Romero, 19, was participating in a 
demonstration in Valencia on March 20 when national guardsmen on 
motorcycles rode toward the crowd firing teargas and rubber bullets. He 
was knocked to the ground by guardsmen and kicked repeatedly, though he 
and several eyewitnesses said he offered no resistance. Then a 
guardsman stepped on Martinez's head and fired rubber bullets at point-
blank range in his thigh. The shot struck a set of keys in his pocket, 
dispersing metal shards as well as rubber pellets into his leg. Despite 
the serious pain it caused, guardsmen forced Martinez to jog, then took 
him to a military facility where he was made to strip naked for an 
invasive body search. Officers repeatedly forced Martinez to clean his 
blood off of the floor with his own t-shirt. He repeatedly asked to see 
a doctor, but was instead forced to kneel with other detainees for 
several hours. The room where they were held was kept at a very cold 
temperature by an air conditioner. When Martinez asked an officer to 
turn it down, the officer responded by turning it up full blast. 
Guardsmen came into the room where Martinez was being held to mock him, 
and several took photographs of his bullet wound on their cell phones. 
He was not taken to an emergency medical clinic until roughly 3 hours 
after he had been shot. There, the medical professional said he was 
suffering from hypothermia and heart arrhythmia likely caused by 
trauma, and that he had lost so much blood that he would die if he was 
not immediately treated at a hospital.

    Juan Sanchez, 22, was detained by national guardsmen when he was 
walking to the bank on the outskirts of Caracas on March 5. Earlier 
that day, Sanchez had participated in a protest in the neighborhood. 
Without warning, the guardsmen kicked him, beat him, and fired a rubber 
bullet from point-blank range into his right thigh. One of the 
guardsmen said, ``Finally we got one. He'll be our trophy so these 
brats stop fucking around.'' Sanchez was driven to a military 
installation, where a dozen guardsmen forced him to take off his 
clothes. One guardsman, who saw his bleeding leg, asked: ``Does this 
injury hurt?'' and inserted his finger into the open wound, removed it, 
and then inserted it again. The second time he took something out of 
his leg, but Sanchez could not see if it was muscle tissue or a rubber 
bullet. Three guardsmen then handcuffed him to a metal pole, gave him 
electric shocks twice, and demanded that he tell them who his 
accomplices were. Afterward, the guardsmen took Sanchez to a patio 
where he was forced to fight with one of them, while the rest watched, 
laughing and cheering. Sanchez was taken to a hospital, where the 
guardsmen interfered with the doctor's efforts to treat him, and then 
was driven back to the military installation, where guardsmen called 
him a ``fascist'' and continued to kick him, threatening to send him to 
one of Venezuela's most violent prisons.
                         due process violations
    Under Venezuelan law, a detainee arrested while committing a crime 
should be brought before a prosecutor within 12 hours of his or her 
arrest. The prosecutor has up to 36 additional hours to investigate the 
case and bring the detainee before a judge at a hearing, in which the 
detainee may be charged with a crime or released. During this period, 
detainees have the right to communicate with their families, lawyer, or 
person of trust, and to be immediately informed of the charges against 
them.
    Human Rights Watch found that these fundamental due process 
guarantees were violated in the vast majority of cases documented in 
this report.
    The detainees were routinely held incommunicado for extended 
periods of time, usually up to 48 hours, and sometimes longer. While, 
in a few exceptional cases documented by Human Rights Watch, detainees 
were released before being brought before a judge, in the overwhelming 
majority of cases prosecutors charged them with several crimes, 
regardless of whether there was any evidence the accused had committed 
a crime.

    Six people, two of them children, were detained on February 18 for 
allegedly vandalizing the property of CANTV, the government telephone 
and Internet provider, in Barquisimeto. Yet while police reports 
claimed the accused were caught fleeing the CANTV offices, various 
witnesses and a video show at least four of the detainees were detained 
in a different location. Apart from the police report, the only 
evidence presented by the prosecutor against the detainees was an 
abandoned gas container found near CANTV. In spite of the lack of 
evidence, a judge charged the detainees with eight crimes, including 
damages to public property, the use of an adolescent to commit a crime, 
and instigation to hate.

    In virtually all of the cases we investigated, detainees were not 
permitted to contact their families during the initial 48 hours of 
their detention despite repeated requests to do so. Meanwhile, 
relatives of detainees were routinely denied access to information 
regarding whether family members had been detained and, even when they 
knew detentions had taken place, where they were being held. Family 
members described traveling from one security force facility to another 
in search of their loved ones, only to be told they were not there. In 
several instances, authorities deliberately misled families and lawyers 
regarding the whereabouts of detainees. When families were able to 
determine the location of detainees--most often through the unrelenting 
searches of lawyers and local human rights defenders--they were 
consistently denied access to them, even when those detained were 
adolescents.

    Albany Ottaviani went to a military installation in Caracas on 
February 28 to inquire about the whereabouts of her brother, Maurizio 
Ottaviani Rodriguez, 20. He had been detained earlier that day at a 
protest by national guardsmen. At the installation, she said a colonel 
told her and 15 other family members waiting outside that they could be 
arrested for standing in a military zone. The family members promptly 
left for fear their presence might lead to retaliation against their 
relatives, who they believed were being detained on the base. The 
following morning, family members returned to the base, where guardsmen 
told them they would provide a bus to take the families to a 
courthouse, where the detainees were going to be tried. Families got on 
the bus, but guardsmen instead drove them around the city for several 
hours before dropping them off at a location that was not where 
hearings were to be held.

    Angelica Rodriguez went to look for her husband, Jesus Maria Toval, 
on a military installation in Barquisimeto on February 21--the day 
after he had been detained by an armed pro-government gang and handed 
over to national guardsmen. She said a guardsman told her that there 
was no list with names of detainees being held there, so they could not 
tell her where her husband was on the base. Two hours later--only after 
Rodriguez broke down crying--a different guardsman approached her and 
quietly told her that Toval was indeed being held at the base. Yet 
Rodriguez and her husband's lawyer were not allowed to see Toval until 
2 days later, when he was brought before a judge for his hearing.

    Lawyers told Human Rights Watch that detainees were routinely moved 
from one detention center to another during their incommunicado 
detention--a practice referred to as ``taxi driving'' (ruleteo)--
without informing detainees, their families, or lawyers where they were 
being taken, or when they would be taken before a judge.
    Detainees were also denied access to legal counsel during their 
detention. Lawyers who were able to determine where detainees were 
being held--in many cases by deducing where they would be taken based 
on eyewitnesses' accounts of where they had been detained, and by which 
security force--were not allowed to meet with them, despite repeated 
requests.
    Virtually all detainees were not allowed to meet with their defense 
lawyers until minutes before their initial hearing before a judge. 
Lawyers and detainees alike told Human Rights Watch that these meetings 
usually occurred in the hallways outside of courtrooms, in front of 
police and court officials as well as other detainees (to whom they 
were sometimes handcuffed), denying their right to a private audience.
    Lawyers, like detainees, usually learned of the charges against 
detainees at the hearings, or at the earliest, minutes before they 
began. They had virtually no time to review relevant court documents, 
such as police arrest reports or inventories of supposed evidence, 
which was critical to defend their clients. Lawyers told Human Rights 
Watch that this access was denied even in cases in which hearings were 
delayed for hours--time during which they could have met with detainees 
or reviewed case files.
    Hearings were routinely and inexplicably held in the middle of the 
night, a practice that lawyers interviewed by Human Rights Watch had 
not experienced in other types of cases. Lawyers told Human Rights 
Watch that, night after night, they were forced to wait for hours in 
courts, in military facilities, or in other where places hearings were 
held, without receiving any plausible justification for the delay. This 
routine was physically exhausting, wasted time they could have 
dedicated to defending other detainees, and made it even harder for 
them to provide an adequate defense.
    According to various lawyers and detainees--as well as judicial 
files to which Human Rights Watch had access--prosecutors' accusations, 
and the eventual charges brought against detainees, were based almost 
exclusively on police reports and, in several instances, on what 
detainees plausibly said was planted evidence. In addition, individuals 
who were detained separately, at different times or in different 
locations--and who in many cases did not even know each other--were 
sometimes charged by prosecutors in a single hearing with the same 
crimes, sometimes using the same piece of evidence for all of the 
accused, such as a piece of barbed wire.
    Instead of thoroughly reviewing the evidence provided by 
prosecutors and detainees--the latter's physical appearance alone in 
many cases provided compelling evidence of abuse--judges routinely 
rubber-stamped the charges presented by prosecutors.
    While most of those charged were granted conditional liberty in the 
cases we investigated, judges repeatedly placed conditions (medidas 
cautelares) on detainees' freedom that prevented them from exercising 
their fundamental rights to freedom of assembly and expression, such as 
prohibiting them from participating in demonstrations or talking to the 
media.

    Marco Aurellio Coello, 18; Luis Felipe Boada, 25; Cristian Holdack, 
34; Nelson Gil, 22; Demian Martin, 19; and Angel de Jesus Gonzalez, 19; 
were arbitrarily detained on February 12 in six different places in or 
around Carabobo Park in Caracas, where a largely peaceful demonstration 
ended in violent incidents that led to at least three deaths, dozens of 
people injured, and the burning of several official vehicles. The six 
men--who did not know each other before that day--were subject to 
severe physical abuse during their arrest and at the headquarters of 
the investigative police in the area, where they were all held 
incommunicado for 48 hours. During their detention, they did not have 
access to their lawyers and were not permitted to see their families. 
At 11 p.m. on February 14, they were brought before a judge and charged 
with several crimes based on evidence presented by the prosecution that 
included clothes that security officials had stained with gasoline, and 
photographs of unidentifiable individuals engaged in confrontations 
with security forces placed alongside the men's mug shots taken at the 
police station. At 5:30 a.m. on February 15, the judge confirmed the 
prosecution of the six men and ordered their pretrial detention. Four 
of them were granted conditional liberty on April 1, and released while 
awaiting trial.

    Dozens of lawyers and human rights defenders told Human Rights 
Watch that, in a country where prosecutorial and judicial independence 
has been significantly undermined in recent years, they had grown 
accustomed to encountering obstacles to defending detainees. However, 
all said the situation had worsened dramatically after February 12. 
Never before, they said, had they encountered such a comprehensive 
battery of obstacles affecting so many cases.
     officials and security forces who intervened to help detainees
    It is important to note that not all of the security force members 
or justice officials encountered by the victims in these cases 
participated in the abusive practices. Indeed, in some of the cases, 
victims told Human Rights Watch that security officials and doctors in 
public hospitals had surreptitiously intervened to help them or to ease 
their suffering.
    In a few instances, national guardsmen quietly passed a cell phone 
to detainees being held incommunicado, so that they could call their 
families and tell them where they were, or snuck them food or water. 
Some security officials furtively told human rights lawyers the 
whereabouts of detainees, or tipped them off as to when the detainees 
would be brought before a judge. In several cases, doctors and nurses 
in public hospitals--and even those serving in military clinics--stood 
up to armed security forces, who wanted to deny medical care to 
seriously wounded detainees. They insisted detainees receive urgent 
medical care, in spite of direct threats--interventions that may have 
saved victims' lives.
                        fear of reporting abuses
    Many victims and family members we spoke with said they believed 
they might face reprisals if they reported abuses by police, guardsmen, 
or armed pro-government gangs. Victims also expressed fear that, were 
they to report abuses, the Attorney General's Office would fabricate 
charges against them, or--in cases in which victims had already been 
accused of crimes--that judges would punish them by wrongfully 
convicting them, or revoking their conditional liberty if it already 
had been granted.
    A lawyer from the Catholic University Andres Bello, who coordinates 
the work of a team of criminal lawyers who have assisted hundreds of 
detainees in Caracas, told Human Rights Watch that ``in almost no 
cases'' do victims have the confidence to file a complaint with the 
Attorney General's Office. He added, ``People don't bring complaints 
because they don't trust institutions. They fear who will protect them 
if they do.''
    Many victims traced these fears to threats they received from 
security forces during their detentions. Not only were detainees 
subject to repeated death threats, but several victims of severe 
physical abuse said that security forces had explicitly told them not 
to say how they had been hurt. In several cases we investigated, 
government security forces even went so far as to suggest false stories 
that victims of abuse should use to explain how their injuries had been 
sustained. Others were told they would not be released unless they 
signed documents saying they had not been abused during their 
detentions. Victims saw these exchanges as a clear threat not tell the 
truth about what had happened to them.

    Guardsmen told Gengis Pinto, 36, who had been beaten, given 
electric shocks, and shot at point-blank range by guardsmen after being 
detained at a protest, to say that he had run into a post and been hit 
in the face with a bottle by a fellow demonstrator.

    Nelson Gil, 22, who was beaten by plainclothes police, was told by 
investigative police who observed his injuries to say he fell and was 
punched by fellow protesters.

    Keyla Brito, 41, her 17-year old daughter, and six other women who 
were detained in a military installation where they were beaten and 
threatened by guardswomen, were forced to sign a document saying they 
had not been abused in exchange for authorities releasing them without 
charging them with a crime.

    Lisandro Barazarte, 40, a photographer for the newspaper 
``Notitarde'' in Valencia, said he feared for his life after his 
photographs of armed pro-government supporters firing pistols on 
protesters were published. Barazarte received multiple death threats 
after the photos appeared in the newspaper. ``I live in suspense, 
because I don't know from where they are going to shoot at me,'' he 
said. ``At any moment something could happen to me.'' At the time he 
spoke to Human Rights Watch, he had not placed a complaint about the 
threats with officials, out of fear he would be targeted for revenge 
attacks.

    Several victims expressed fear that reporting crimes could lead to 
the loss of employment for them or their family members who worked for 
the government. In several instances, these threats were made explicit.

    A victim who was beaten, shot, and threatened with death after 
being arbitrarily detained by national guardsmen told Human Rights 
Watch that, not long after he was released, members of the intelligence 
services (Servicio Bolivariano de Inteligencia Nacional, SEBIN) brought 
in his father for questioning. The victim said his father was a career 
officer in the Venezuelan military. SEBIN officers told the father that 
if his son continued to take part in demonstrations or filed a 
complaint, the father would be considered a ``counterrevolutionary'' 
and would lose his job. The victim said that he had stopped 
participating in demonstrations since his father's conversation with 
SEBIN, and would not file a complaint with authorities for the abuses 
he had suffered, for fear it would cost his father's job.

    Another victim who was arbitrarily detained and beaten by an armed 
pro-government gang said one of the reasons he had not filed a 
complaint was out of concern he could lose his job. An employee of a 
government ministry, he told Human Rights Watch, ``I know that at any 
moment they could fire me.'' He said he had intentionally steered clear 
of political activities since the incident.

    The reluctance to report abuses is compounded by a deep and 
widespread distrust of the justice system itself. Victims and their 
lawyers were extremely skeptical that prosecutors and judges who belong 
to the same institutions as those who had violated their rights would 
act with impartiality and professionalism when handling their abuse 
claims.

    Jose Alfredo Martin Ostermann, 41, who was abducted by members of 
an armed gang as he walked with a friend near a pro-government rally in 
Caracas, beaten in plain view of national guardsmen, and then handed 
over to police, said he did not plan to file a complaint with 
authorities because they were collaborating directly with his abusers. 
``I was beaten, threatened, and detained in front of the National 
Guard--which is supposed to be a state body--and they simply turned 
around and walked away.'' He added, ``They know [about this] at the 
prosecutors' office and the police, and they are not doing anything.'' 
Placing a complaint, he said, ``may even be counterproductive. It could 
lead to vengeance.''

    Victims' lack of confidence in the justice system was underscored 
by cases in which government officials informed detainees and their 
families that the cases against them were being pursued on political 
grounds.
                      obstacles to accountability
    The Venezuelan state should ensure that any acts of violence or 
serious crimes are rigorously investigated and that those responsible 
for them are held accountable. These include crimes allegedly committed 
by protesters, as well as abuses committed by government security 
forces.
    Under international law, the Venezuelan Government also has an 
obligation to conduct prompt, thorough, and impartial investigations of 
human rights violations, including those documented in this report, as 
well as other abuses reported by victims and local human rights 
defenders and abuses reported in the press.
    President Maduro and Attorney General Luisa Ortega Diaz have 
acknowledged that security forces have committed human rights 
violations in the context of demonstrations since February 12. Both 
have pledged that those responsible for abuses will be investigated and 
prosecuted. According to the government, as of April 25, the Attorney 
General's Office was conducting 145 investigations into alleged human 
rights violations, in which 17 security officials had been detained for 
their alleged involvement in these cases.
    While these investigations are a welcome start, there are good 
reasons to doubt the ability of Venezuelan authorities to ensure that 
the abuses are investigated in an impartial and thorough manner and 
that those responsible for them are brought to justice.
    One reason is that many abuses are likely to go unreported because 
of the widespread and well-founded fear and distrust that victims feel 
toward the Venezuelan justice system.
    Another reason is that, in many of these cases, the investigative 
police, the Attorney General's Office, and the judiciary are themselves 
implicated in serious due process violations, as well as in failing to 
intervene to address abuses by security forces against detainees. 
Consequently, any thorough investigation will require these 
institutions to investigate their own misconduct--which is likely to 
give rise to serious conflicts of interest and severely compromise the 
credibility of their findings.
    A third reason is the fact that the Venezuelan judiciary has 
largely ceased to function as an independent branch of government. As 
Human Rights Watch has documented in past reports, the Supreme Court 
has effectively rejected its role as a guarantor of fundamental rights, 
with several justices publicly committing themselves to supporting the 
political agenda of the government. Lower-court judges are under 
intense pressure to avoid rulings that could upset government 
officials, as most have temporary or provisional appointments and risk 
being summarily fired by the Supreme Court if they rule in favor people 
perceived to be opponents of the government.
    Given the chronic underreporting of abuses and lack of independence 
of Venezuelan investigative and judicial institutions, it is troubling 
that the president, the attorney general, and other senior government 
officials--while acknowledging the need for accountability--have 
repeatedly said abuses against protesters have been rare and publicly 
defended the conduct of security forces. The attorney general, for 
example, claimed abuses by security forces were ``isolated incidents'' 
and that security forces generally ``respect human rights.'' Meanwhile, 
President Maduro said that only a ``very small number of security 
forces personnel have also been accused of engaging in violence,'' and 
that the government had ``responded by arresting those suspected.''
    It is also troubling that the government has repeatedly sought to 
blame its political opponents, or simply the opposition as a whole, for 
the violence without providing credible evidence. For example, on March 
14, President Maduro said that, ``[a]ll of the cases of people who have 
been killed are the responsibility of the violence from protests (la 
violencia guarimbera)--all of them--from the first to the last.'' 
While, at that time, Maduro said the investigation into these and other 
crimes had made significant progress and provided numbers of alleged 
protesters detained, he did not indicate that anyone had been convicted 
for the crimes. On March 15, President Maduro said that, ``practically 
all Venezuelans who have died, regretfully, are the responsibility of 
the violence of the right.''
    Similarly, despite compelling evidence of attacks by armed pro-
government gangs on civilians, ranking government officials have denied 
their existence, or accused them of pertaining to the opposition. For 
example, on April 13, President Maduro said that, ``the opposition had 
not provided any evidence that shows that the revolutionary colectivos 
are responsible for violent actions.'' He added that, in contrast, the 
government had detained ``supporters of the right [wing] for committing 
terrorist acts.''
    Cabello also said on April 10 that the only ``armed colectivos'' 
belonged to the opposition, and are the ones ``who kill people at the 
guarimbas.'' His statement implied not only that there were no armed 
pro-government gangs, but also that killings at barricades had been 
committed by antigovernment armed groups, an assertion for which he did 
not provide proof, such as cases in which people had been convicted for 
these crimes.
    In another example of blaming the opposition for the violence, the 
government accused Leopoldo Lopez, a prominent opposition leader, of 
being the ``intellectual author'' of the protest-related deaths on 
February 12. The Attorney General's Office promptly sought his arrest 
for several alleged crimes--initially including homicide, a charge it 
was forced to drop when video footage appeared showing security force 
members shooting at unarmed protesters on the date in question. Lopez 
has been held in pretrial detention on a military base for more than 2 
months despite the government's failure to produce credible evidence 
that he committed any crime. The Attorney General's Office has also 
obtained arrest warrants for Carlos Vecchio and other opposition 
figures, while the Supreme Court has summarily tried and sentenced two 
opposition mayors to prison terms, in judicial proceedings that 
violated basic due process guarantees. The Supreme Court's rulings are 
not subject to appeal, which violates the right to appeal against a 
criminal conviction.
    Mr. Chairman and committee members, thank you for your attention to 
this critical issue, and for including this submission.

[Editor's note.--To read the entire Human Rights Watch's 
report, ``Punished for Protesting: Rights Violations in 
Venezuela's Streets, Detention Centers, and Justice System: 
http://www.hrw.org/node/125192. A copy of the report will also 
be maintained in the permanent record of the committee.]

    The Chairman. Well, thank you all for your testimony.
    And, Mr. Vivanco, thank you and your organization for what 
is an incredible piece of work that I think is eye-opening, and 
hopefully will shape the conscience of leaders within the 
hemisphere and beyond.
    Let me ask you, given the broad pattern of behavior that 
you just described in your testimony, as well as in the report, 
how can the international community discern who is responsible 
for authorizing or encouraging the use of violence against 
protestors, specifically when not one member of the security 
forces has received a sentence for their role in human rights 
violations?
    Mr. Vivanco. Mr. Chairman, I think it is doable. You need 
to start by looking at who was in command in the location where 
abuses took place. We do have that information. We were able to 
include that information in our report. There are several 
testimonies of individuals who were subject to arbitrary 
detention and abuses and then they were moved to a military 
facility where they suffered additional abuses. And those names 
and the location of those security forces are in the record, 
are available, and I think they are mostly responsible--the 
officials who are in charge of those forces are clearly 
directly responsible for these abuses.
    The Chairman. Now, let me ask you, given the fact that the 
report states that judicial officials did not provide a check 
on abuses committed by the Venezuelan security forces, and in 
some cases actually were complicit in human rights violations, 
can you provide some greater detail in the collusion between 
justice officials and the security forces?
    Mr. Vivanco. Mr. Chairman, in our report, we refer to 
several fundamental violations of due process like, for 
instance, prosecutors who, according to the evidence that we 
collected, interrogated detainees while being held 
incommunicado in a military installation without a defense 
attorney, and judges and also prosecutors that openly ignore 
allegations and complaints about physical abuse, including 
torture. There is a clear failure on the part of the judiciary 
to conduct a rigorous and independent investigation on cases so 
far of obvious and evident abuse.
    According to the report that we published, judges were 
holding hearings in the middle of the night and only 5 minutes 
before the hearing they gave access to the attorneys 
representing the victims their file and the evidence that was 
included in the file to support the charges against them.
    Unfortunately, the judicial system in Venezuela--and that 
includes the prosecutors, not only the prosecutors but also the 
justice system--and I am referring to the judiciary in 
general--has been captured since 2004, thanks to a reform 
promoted by the administration of President Chavez. What they 
did in 2004 was to change the structure of the Supreme Court. 
The Supreme Court at that point had only 20 justices, and 
overnight using a slim majority that the government had at 
Congress at that time, six or seven votes, they managed to 
change the structure from 20 to 32 justices, and they added 12 
justices who are clearly on the side of the government. Since 
then, the Supreme Court for more than 10 years has been ruling 
systematically every decision on the side of the government.
    And on top of everything else, 80 percent of the judges in 
Venezuela are provisional judges. They do not have tenure in 
their position. They could be fired with basically no due 
process overnight, including the judge that is investing the 
case against Leopoldo Lopez is a provisional judge who could 
lose her job just by a decision of the Supreme Court which is 
completely on the side of the government.
    The Chairman. So now, with the report, which I have some 
good sense of, and with all of your testimony, I would say to 
any one of you, all three of you actually, do you oppose 
targeted sanctions against individuals who can be documented to 
have committed human rights abuses at this time?
    Mr. Vivanco.
    Mr. Vivanco. The targeted sanctions is certainly a valid 
option against those involved in human rights abuses, and that 
should be a public policy option for this country as well as 
any other democratic country in the world.
    The key question is, How do you adopt a policy that could 
be effective on the ground and could change conditions there? 
My sense is that the ideal option is to strategize with 
democratic governments in the region and to try to develop a 
creative common ground, a unified vision with democracies in 
the region but also in other regions, in Europe specifically, 
that could exercise effective pressure on the government of 
Maduro to address these human rights abuses.
    The Chairman. Mr. Naim.
    Dr. Naim. Yes, Chairman. As I said in my testimony, I 
strongly support targeted sanctions against individuals that 
are violators of human rights but also those incurred in 
massive economic crimes and corruption.
    The Chairman. Ambassador Duddy.
    Ambassador Duddy. I do not oppose targeted sanctions 
against individuals. I note, as did Senator Rubio earlier, that 
Venezuelans of all political stripes continue to enjoy access 
to the United States, and that, indeed, being singled out, as 
has happened with a number of people designated as kingpins, 
will in some cases result in shrill defiance but will be 
understood by the individuals involved as something that they 
are going to need to deal with. It would be a formidable step.
    Once again, to return to an earlier point I made, how 
exactly we do and how we talk about it with our friends in the 
region will be critical. I think that we continue to enjoy very 
broad access with all of the democratic governments of the 
region, and as political officers, military attaches, and 
others engage with other governments in the region, I think we 
need to be clear that we are sanctioning behavior which should 
be objectionable, is indeed objectionable to all of us.
    The Chairman. I would just make an observation here that, 
based on the OAS performance, I know we want to engage in a 
hemispheric response, but if you cannot even get the 
appropriate resolutions passed at the OAS, which are far from 
sanctions, you wonder where that hemispheric response is going 
to be. In my experience, for 21 years now between the House and 
the Senate, where I have pursued sanctions at different times 
as one of the handful of peaceful diplomatic tools that exist 
for any given country, if you are going to pursue nonmilitary 
options in any given set of circumstances in the world, you 
have the use of international opinion, to the extent that a 
country and/or a dictator or authoritarian figure will be moved 
by that international opinion. You have the use of your aid and 
trade to induce a country to act a certain way, and, in the 
absence of that achieving something, then you have the denial 
of aid or trade, which is in essence sanctions.
    And the problem is that we consistently often have to lead 
to get other countries to then join us, such as with Iran. The 
European Union was not there first. It then joined us as we led 
an effort and showed that we were willing to engage. We are 
doing it in the question of the Ukraine, where we led with the 
first round of individual sanctions, and then the Europeans 
followed us.
    So I certainly would love to see a stronger hemispheric 
response. I just do not know how long one waits upon other 
countries to get to the point that they will acknowledge and do 
something about what is vividly before their eyes in their own 
neighborhood.
    Senator Rubio.
    Senator Rubio. Thank you again, Mr. Chairman, for holding 
this hearing, for all of you for being a part of it.
    I would want to summarize what your testimony has been here 
today, and that is largely that in fact there are systemic 
human rights violations happening within Venezuela on behalf of 
the government as a part of a strategy.
    Number two, you have stated that you do not find an 
objection--and in fact, many of you have advocated in favor of 
targeted sanctions against individuals responsible for these 
human rights violations. We have heard testimony from the State 
Department saying that they do not think it is the right time 
to do it. I strongly disagree, as I think most of the members 
who were here today would as well. It is never the wrong time 
to condemn and sanction individuals responsible for grotesque 
human rights violations.
    And to that end, I wanted to use my time here today to 
share with you the name of 23 individuals in Venezuela who I 
think we should nominate for that sort of sanction based on 
many of the different things that you have all testified here 
today and others.
    I begin with Gabriela Ramirez, an ombudsman, a person who 
is in charge of defending people and in fact has been 
cooperating with the government; next are two people involved 
with the Department of Armaments and Explosives, Aref Eduardo 
Richany Jimenez y Julio Cesar Morales Prieto, individuals who 
in my opinion should be sanctioned.
    Third is one of the prosecutors there who has also acted 
unfairly and participated in these human rights violations, 
Luisa Ortega Diaz; the Chief of the Region number 8 of the 
National Armed Forces, Luis Alberto Arrayago Coronel; also the 
chief of a region of strategic defense, Miguel Vivas Landino.
    Then a number of governors for regions where there has been 
an unbelievable amount of human rights violations who have been 
cooperative in those activities, Francisco Rangel Gomez of the 
State of Bolivar; the Governor of the State of Tachira, Jose 
Gregorio Vielma Mora; and the Governor of the State of 
Trujillo, Henry Rangel Silva.
    Beyond that, there are a number of others, a commander of a 
regiment of what they call la Guardia del Pueblo, the commander 
of la Guardia del Pueblo regiment, Aquiles Rojas Patino. 
Another couple of individuals associated with the National 
Guard: Justo Jose Noguera Pietri; Sergio Rivero Marcano, the 
Director of Operations for that National Guard; also 
responsible for violations of human rights, Antonio Benavides 
Torres.
    The Chief of Region No. 1 of the Regional Command of the 
Bolivarian National Guard, Franklin Garcia Duque; the Chief of 
Region No. 2 of the National Guard, Arquimedes Herrera Ruso; 
the Chief of Region No. 3 for the National Guard, Manuel Jose 
Graterol Colmenarez; the Chief of Region No. 4 of the National 
Guard, Octavio Chacon; the Chief of Region No. 5 for the 
National Guard, Manuel Quevedo.
    One of the Ministers of Interior, Justice and Peace--there 
is anything but peace or justice in Venezuela today--who is 
directly responsible for many of these violations, not just 
encouraging them but looking the other way is Miguel Rodriquez 
Torres; another vice minister in the same Interior Ministry, 
Marcos Rojas Figueroa; the Director of the National Bolivarian 
Police, someone who has actively participated in controlling 
and directing human rights violations, Manuel Eduardo Perez 
Urdaneta.
    The Director General of their intelligence system, which 
has been deeply involved in these activities is Gustavo Enrique 
Gonzalez Lopez, and associated with him as well, Manuel 
Gregorio Bernal Martinez.
    These are just 23 names. The list goes on and we will 
continue to collect those names of individuals who I believe 
should be nominated for sanctions by this Government at 
multiple levels.
    Beyond that, I would ask the comments of the panel. What 
about these individuals that have made themselves millionaires 
and billionaires because of the access they have to the 
government? What about individuals that have cooperated and 
enriched themselves as the process of that who now actively 
parade up and down the streets of the United States mocking us, 
quite frankly acting with impunity, in many instances openly 
laughing at this Nation's inability to reach them or do 
anything about it? Do you have any opinion on what we should do 
with private individuals who have facilitated what the 
government and these 23 individuals have been able to carry out 
within Venezuela?
    Dr. Naim. I support the sanctioning of individuals that 
have committed economic crimes, that are guilty of massive 
abuses and corruption. I, however, encourage that whatever 
sanctions are imposed on those individuals are well documented 
and let the world understand what have they done and why they 
are being sanctioned.
    Ambassador Duddy. I would simply add to that what we are 
seeing still in Venezuela is the greatest waste of an 
incredible era of windfall profits. I would emphasize that it 
is astounding, the country with the largest proven oil reserves 
in the world sees every morning millions of Venezuelans 
streaming out to find basic consumables in the supermarkets. So 
there is a really extraordinary set of circumstances on the 
ground.
    I think that there is some real utility. Exactly how we do 
it, legally speaking, I am not sure, but there is some utility 
in underscoring the degree to which some people have pirated 
the resources of the state and, in doing so, frittered away an 
opportunity to Venezuela to make a real leap forward 
economically.
    Mr. Vivanco. Senator Rubio, even targeted sanctions could 
be in some cases counterproductive. So I agree with Moises Naim 
that if any country in the world used that option, it is 
essential to be as transparent as you can in order to explain 
what you justify to the public and disclose as much information 
why who have been sanctioned and exactly what are the grounds.
    Senator Rubio. And I hope we would as well because it makes 
them stronger.
    By the way, let me just clarify that list is by no means 
comprehensive. It is a list of 23 people. I would list 50 
people, if I could, today but at least 23 people that today I 
wanted to share with you and everyone that I believe should be 
candidates for sanctions. And certainly any sort of sanctions 
would carry with them strong evidence of what these individuals 
have been responsible for.
    And I would just close by taking this moment, because I 
know that this will be listened to by government officials in 
Venezuela. I do believe there are people within the Government 
of Venezuela--in fact, I know there are people within the 
Government Venezuela that are quite uncomfortable with the 
direction that Nicolas Maduro and those around him have taken 
this country, not just because of the economic realities, but 
because of these violations. I know that there are professional 
military officers within the armed forces there that never 
signed up to be used as a way to repress their own people.
    And I would just say to them the intention and the policy 
of the United States is not to interfere in the internal 
affairs of any nation. The future of Venezuela belongs to the 
people of Venezuela. They must determine the direction of that 
country and what sort of system of government and economics 
they want.
    What we also want them to understand is that the United 
States will not stand by an idly watch as the rights of people, 
with whom we share this hemisphere, are systematically violated 
by an anti-American government, to top it all off, and ignore 
their plight. And we will endeavor to use and I think in a 
bipartisan way, I hope--and I know on this committee, that will 
be the case--to use the influence and the power of the United 
States of America to firmly line up on the side of those who 
aspire to liberty, to freedom, and to respect of human rights. 
And that is our intention here, and I pray and hope that that 
is the direction that we go in the weeks to come.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Two final questions, one to Mr. Naim and one to Mr. 
Vivanco.
    You mentioned and have written repeatedly about Cuba's 
widespread detrimental influence in Venezuela. Can you provide 
a synopsis of the way that the Cuban regime and its advisors 
infiltrate the Venezuelan Government?
    Dr. Naim. At this point, what we have is evidence of the 
presence of Cuban public servants in Venezuela's Government. 
There is also ample evidence that the important functions of 
the Venezuelan state are being shaped or influenced or even 
decided by the Cuban Government.
    The Chairman. And does that include security forces?
    Dr. Naim. Yes, sir.
    The Chairman. Finally, Mr. Vivanco, maybe I am 
mischaracterizing this, so tell me if I am. In your answers, I 
hear a reticence to the question of even targeted sanctions 
against human rights abuses. So what is it that you think can 
happen that can be created both from these hearings, your 
organization's reports, as well as others, to change the course 
of events in Venezuela.
    Mr. Vivanco. Mr. Chairman, let me be as candid as I can. I 
hope that this type of hearing will encourage the 
administration to do more for democracy, for human rights, for 
the promotion of fundamental freedoms in this hemisphere. I 
think the administration has a chance and there is a space to 
develop a more robust policy toward the region and working 
closely with democratic governments, starting with the big 
ones, Mexico and Brazil--those governments have also 
responsibility to lead and to defend these freedoms and human 
rights. And I think the administration has not done enough so 
far to establish these goals as a clear priority in this 
region.
    The Chairman. When we talk about engaging in democracy and 
human rights, what specifically would you want to see, because, 
you know, when I visit the hemisphere and I talk to leaders, 
there is this Latin American sense of non-interference in their 
neighbor. So when we talk about hemispheric responsibility so 
that countries within the hemisphere who are democratic like 
Mexico, like Colombia, like Chile, just to mention some, feel, 
well, I should not talk about my neighbor even though I think 
they are doing horrible things. What is the U.S. going to do 
with that?
    Mr. Vivanco. Unfortunately, my sense is that you are right. 
The region is deeply fragmented. The basic consensus that was 
established in the 1990s in support of democracy and human 
rights to collectively defend those principles, unfortunately, 
is no longer present.
    And if there is one democracy in the region that could 
reinforce these principles, it is the U.S. Government and the 
Obama administration. I think it is in a unique position to 
work much more closely with Brazil. Brazil has tremendous 
influence in South America, and Brazil is very reluctant to 
publicly take a position on these issues. As a matter of fact, 
on the Venezuelan crisis, it has been pretty silent, and that 
silence needs to be, I think, changed for not only statements 
but also action like, for instance, to demand the release of 
all of those ones who have been under arbitrary detention or 
have an open file against them just because they exercised 
their fundamental rights. And I think the administration could 
be more aggressive in terms of engaging in the region with a 
strategy that defends these fundamental freedoms and rights.
    The Chairman. Last comments. I see you both have your hands 
raised. Mr. Naim.
    Dr. Naim. Mr. Chairman, you are right that there is the 
propensity of Latin American countries not to want to interfere 
in the domestic affairs of their neighbors.
    But they have been very selective in doing that, and what 
we have seen, for example, in the case of Brazil that has 
maintained a very loud silence for all these years, there has 
not been one comment by the Brazilian authorities about what is 
going on in Venezuela even though Brazil is presided by a woman 
that, as a result of her opposition to a military government, 
was tortured and repressed. But we have not heard from her any 
comment about the same things that are happening to young women 
in Venezuela today.
    But in the case of Brazil, for example, they have been very 
active in the crisis in Honduras, and they were very active in 
the crisis in Paraguay. So we have seen a certain selectivity 
in the case of Brazil.
    But I want to point out a trend that I think is welcome and 
encouraging that is taking place in Latin America where 
opposition forces are taking a public stand against their 
government's complacency toward the Venezuelan situation. In 
Brazil, Argentina, Chile, and Peru, elected legislators have 
openly challenged their own governments for their passive 
stance towards Venezuela. This is a process that ought to be 
welcomed and encouraged. It is very important to have elected 
officials who are members of non-ruling parties throughout 
Latin America shaming their own governments out of their 
silence regarding the abuse that is taking place in Venezuela.
    The Chairman. Ambassador Duddy.
    Ambassador Duddy. Yes, sir, just a final comment. First of 
all, I think that a hearing like this is useful, and as one of 
the earlier panelists said, I am sure that people in Venezuela 
will be following this. While we may be criticized collectively 
and individually for various things that have been said here 
this morning, the Venezuelan people will hear it.
    I would encourage you and other elected officials to 
continue to travel to the region and not only just talk to 
leaders, but to speak with foreign media, emphasizing our 
concern with human rights, as well as with the deteriorating 
economic situation. And I return to the deteriorating economic 
situation, which I hope will become an increasing part of our 
official dialogue in private with governments around the 
region, because what we need for others to understand is that 
as the situation on the ground spins out of control, all of the 
region stands to be affected, the Caribbean arguably most 
immediately, but Brazil has many, many businesses on the 
ground, as do others. They will all be affected, and we need to 
make sure that to the extent that we can--and we are in the 
best position to do so--that folks understand that this is not 
merely a matter of the United States interfering in a domestic 
political squabble, that it is bigger and much more serious 
than that.
    The Chairman. Well, I appreciate all of your insights.
    Two final observations. One is it was my hope that the 
democratic charter of the OAS, the effort that was combined 
collectively, was going to be a vehicle for hemispheric 
engagement in promoting democracy and human rights within the 
region. That has been, unfortunately, not the vehicle that I 
anticipated it being. And it is up to the leaders of the 
hemisphere to make that a vehicle, which they agreed to and 
ratified as a vehicle for collective action, which is not the 
interference of one country or another, but the standards that 
are held hemispherically and, I would say, globally.
    And the last point that I would make is that it is the 
intention of the committee that this not be the end of our 
engagement on the question of Venezuela. There are many, many 
different dimensions of that, and certainly the human rights 
issue, which has been the centerpiece of our focus today, is 
critical. I would suspect that the results of what we have 
heard here today will move some of us to action in a way that 
hopefully will be both constructive and, at the same time, give 
both the administration, as well as those in Venezuela who are 
committing human rights abuses, a clear knowledge of what is 
headed their way.
    And with that and the appreciation of the committee, this 
hearing will remain open until the close of business tomorrow.
    And this hearing is adjourned.
    [Whereupon, at 1:15 p.m., the hearing was adjourned.]
                             
                             ----------                              


              Additional Material Submitted for the Record


 Letters Sent to Senators Robert Menendez and Bob Corker From Roberta 
        Jacobson re: The Role of Sanctions in Venezuela's Policy

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all] 
     
                                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
